                                  EVALUATION




 BIA NEEDS SWEEPING CHANGES TO
 MANAGE THE OSAGE NATION'S
 ENERGY RESOURCES




Report No.: CR-EV-BIA-0002-2013    October 2014
              OFFICE OF
              INSPECTOR GENERAL
              U.S.DEPARTMENT OFTHE INTERIOR



Memorandum                                                                    OCT 2 0 2014

To:            Kevin K. Washburn
               Assistant Secretary - Indian Affairs

               Michael Black


From:          Mary L. Kendall
               Deputy Inspector Genera

Subject:       Final Evaluation Report - BIA Needs Sweeping Changes to Manage the Osage
               Nation's Energy Resources
               Report No. CR-EV -BIA-0002-2013

        This memorandum transmits the findings of our evaluation of the Bureau of Indian
Affairs' (BIA), Osage Agency' s (Agency) management of the Osage Nation's oil and gas
resources. We focused on BIA's effectiveness in managing the Osage Nation's mineral estate.

         We found that the Agency' s oil and gas management program is fundamentally flawed,
thereby preventing the Agency from effectively managing the mineral estate. BIA can only
reform the program through sweeping changes in how the Agency conducts oil and gas
activities. Specifically, we found weaknesses in the Agency' s oil and gas policies and procedures
that guide critical activities affecting royalty payments. In addition, we determined that the
Agency's system for accounting and leasing activities is inadequate and, as a result, Agency staff
conducts many activities manually. Finally, we identified many competing interests in the
Agency's oil and gas operations, including tribal beneficiaries, the Osage Nation Minerals
Council, leaseholders and operators, and surface owners. These interests contribute to the
complexity of managing the Osage Nation's mineral estate and put significant pressures on
Agency staff.

        We provide 33 recommendations that should improve the Agency's management of its
oil and gas program. Five recommendations are resolved and implemented, thus requiring no
further action. There are 27 recommendations that are resolved and not implemented. These are
being forwarded to the Assistant Secretary for Policy, Management and Budget for tracking their
implementation. One recommendation is unresolved. We will refer this recommendation to the
Assistant Secretary for Policy, Management and Budget for resolution. We are encouraged by
early reports of agency action toward hiring key personnel and working with the Office of
Natural Resource Revenue to explore implementing some of our recommendations. We believe
that ifBIA implements all of our recommendations, the Agency's management of the Osage
Nation's oil and gas program will become more effective.



                               Office of Inspector General I Washington, DC
      The legislation creating the Office of Inspector General requires that we report to
Congress semiannually on all audit, inspection, and evaluation reports issued; actions taken to
implement our recommendations; and recommendations that have not been implemented.

       We appreciate the cooperation and assistance of the BIA staff during our review. If you
have any questions about this report, please contact me at 202-208-5745.




                                                2
Table of Contents
Results in Brief ....................................................................................................... 1
   Objective ............................................................................................................. 3
   Background ......................................................................................................... 3

Findings................................................................................................................... 5
   Sweeping Changes Needed in a Fundamentally Flawed Program ...................... 5
   The Agency has Nonexistent or Vague Policies and Procedures........................ 6
   Agency Environmental Policy and Practice Has Exposed it to Litigation
   Risk…................................................................................................................ 14
   Agency’s Planning and Mineral Resource Management is Insufficient ........... 16
   The Agency has Ineffective Data Management ................................................ 23

Conclusion and Recommendations ....................................................................... 32
   Conclusion......................................................................................................... 32
   Recommendations Summary............................................................................. 32

Appendix 1: Scope and Methodology................................................................... 43
   Scope ................................................................................................................. 43
   Methodology ..................................................................................................... 43

Appendix 2: A History of the Osage Nation and its Mineral Rights .................... 45

Appendix 3: Schedule of Monetary Impact .......................................................... 46

Appendix 4: The Bureau of Indian Affairs’ Response to the Draft Report .......... 47

Appendix 5: Status of Recommendations ............................................................. 69
Results in Brief
We found systemic flaws at the Osage Agency (Agency), a unit of the Bureau of
Indian Affairs’ (BIA), that have created an ineffective program for managing the
Osage Nation’s mineral estate (oil, gas, and other reservation sub-surface
minerals). Further, we found that the Osage Nation Minerals Council (Council), a
tribal group which represents the headright holders (those owning a portion of the
mineral estate), is exerting significant influence over the Agency, which inhibits
the Agency’s ability to manage the tribe’s oil and gas program.

We focused our review on the Agency’s effectiveness in managing the mineral
estate. The Agency is required to obtain maximum royalty payments on behalf of
the headright holders. We found that the Agency’s oil and gas management
program is fundamentally flawed, thereby preventing the Agency from effectively
managing the mineral estate. BIA can only reform the program through sweeping
changes in how the Agency conducts oil and gas activities. Specifically, we found
weaknesses in many aspects of the Agency’s oil and gas activities, including
issues with policies and procedures, environmental compliance, planning and
mineral resource management, and data management. A substantial cause for
these deficiencies is poor oversight by a prior Agency superintendent, and
insufficient staffing and training.

Further, we identified many competing interests in oil and gas operations,
including tribal beneficiaries, the Council, leaseholders and operators, and surface
owners. These interests contribute to the complexity of managing the Osage
Nation’s mineral estate and put significant pressures on Agency staff.

Poor oversight by Agency leadership is a major cause of these deficiencies,
especially relating to oil and gas activities. Considering that interpretation of
many of the regulations is left to the superintendent, this person should be
proactive and knowledgeable in oil and gas issues. We recognize that there have
been different appointees from the Eastern Oklahoma Regional Office and other
Agency offices to superintendent and deputy superintendent, in an acting
capacity, for most of fiscal year 2013.

Separate legislation specifically excludes the Osage Nation from other Indian oil
and gas regulations. As a result, the Council has historically resisted assistance
from the Bureau of Land Management, BIA, and the Office of Natural Resources
Revenue, and continues to do so. We believe, however, that the Council is going
beyond what it considers to be its unique status because of its exclusion from
Indian oil and gas regulations. This effectively avoids more oversight and merely
maintains the status quo with no incentive to opt into a more rigorous system of
accountability.

We previously provided BIA with three Notices of Potential Findings and
Recommendations. The BIA Director agreed with most of our recommendations.


                                                                                    1
He anticipated that newly proposed regulations would address many of our
recommendations. Based on BIA’s response, we revised some of the issues and
recommendations in this report to address its concerns. We provide 33
recommendations to help correct the identified weaknesses and improve the
Agency’s management of the mineral estate.




                                                                              2
Introduction
Objective
We assessed the Bureau of Indian Affairs’ (BIA), Osage Agency’s (Agency)
effectiveness in managing the Osage Nation’s oil and gas program. Appendix 1
contains the details of the scope and methodology for this review.

Background
The Osage Nation is a federally recognized tribe. Its headquarters and most of its
members are located on the Osage Reservation in Pawhuska, OK. The Osage
Tribe Allotment Act of 1906 (Act) 1 reserved the Osage Nation’s mineral estate to
the Osage Tribe and directed that the Tribe’s “headright holders” 2 receive the
estate’s royalty revenues (see Appendix 2 for a history of the Osage Nation’s
mineral estate). The Osage Nation Minerals Council (Council) represents the
headright holders.

The Act was the core authority for BIA to promulgate a unique set of rules in the
Code of Federal Regulations (C.F.R.) governing Osage leasing: 25 C.F.R. part
226, “Leasing of Osage Reservation Lands for Oil and Gas Mining,” which
specifically excludes the Osage Nation from the Indian Mineral Leasing Act’s
regulations (25 U.S.C. § 396). The Osage Nation does not adhere to other mineral
leasing acts or oil and gas regulatory laws.

The Agency operates under BIA’s Eastern Oklahoma Regional Office, and
oversees and provides services to the Osage Nation. The Osage Nation’s mineral
estate covers approximately 1.5 million acres in Osage County, OK. The
combined oil and gas royalties in fiscal years (FYs) 2010 and 2011 were $224
million.

Agency records indicate that the Osage Nation has 4,453 current leases with
approximately 14,500 producing wells. Agency officials expect that operators will
drill an additional 7,500 wells between FYs 2012 and 2027, generating $13.6
billion in estimated royalties.

BIA filled the Agency’s superintendent and deputy superintendent positions, in an
acting capacity, for most of FY 2013. BIA announced the superintendent position
on June 27, 2013, but due to low interest or unqualified applicants, BIA re-
announced the position on September 11, 2013. BIA had not filled the permanent
superintendent position by the end of our fieldwork, but has since done so. BIA
hired a permanent deputy superintendent on November 3, 2013.


1
  34 Stat. 539 (June 28, 1906).
2
 “Headright” means the right to a portion of the proceeds of the Osage Mineral Estate, as provided by the
1906 Act and the tribal roll created pursuant to the 1906 Act. “Headright holder” means the lawful owner of
any interest in headright, including fractional interests.


                                                                                                              3
The Osage Nation received a $380 million settlement in October 2011 from the
U.S. Government because of alleged Government mismanagement of the Osage
Nation’s oil and gas mineral estate. As part of the terms of the settlement, the U.S.
Department of the Interior (DOI) agreed to pursue negotiated rulemaking with the
Osage Nation. The process resulted in newly proposed rules that revise
regulations concerning the Osage Nation’s oil and gas operations. The proposed
rules were published for comment in the Federal Register in August 2013. DOI is
currently reviewing and considering the comments before it finalizes the
regulations.




                                                                                   4
Findings
We found weaknesses in many aspects of the Agency’s oil and gas activities,
including issues with policies and procedures, environmental compliance,
planning and mineral resource management, and data management. A substantial
cause for these deficiencies is poor oversight by a prior Agency superintendent
and insufficient staffing and training.

The Agency is obligated to manage the program in the most prudent manner and
in the best interest of the headright holders. We found, however, significant
external influences over Agency policies and procedures that inhibit effective
management, including resistance of additional oversight and accountability by
the Council.

Sweeping Changes Needed in a Fundamentally
Flawed Program
The Agency’s oil and gas management program is fundamentally flawed, thereby
preventing the Agency from effectively managing the mineral estate. BIA can
only reform the program through sweeping changes in structure, policies,
procedures, and systems.

We found that the general mind-set of the Agency is that it cannot effect change
in the Osage oil and gas program because it is bound by the 1906 Act and 25
C.F.R. part 226, which exclude the Osage Nation from other Indian oil and gas
regulations. We found, however, that BIA has the ultimate responsibility to
manage the Osage Nation’s oil and gas program under the Act and 25 C.F.R. part
226, and it does have the authority to make changes to the program. Specifically,
BIA can change 25 C.F.R. part 226 to mirror other Indian oil and gas regulations
in many respects. Not only does BIA have the authority, but it also has the
obligation to manage the Osage Nation’s oil and gas resources effectively so that
headright holders receive the best value for their oil and gas. In order to correct
deficiencies, however, BIA will need to make significant changes to the program.
These changes will ultimately be in the best interest of the Osage Nation and its
headright holders.

In 1990, we reported similar deficiencies in the Agency’s management of the
Osage Nation’s oil and gas program. The Agency has not corrected these
deficiencies. As such, it still struggles with vague regulations, insufficient policies
and procedures, an antiquated data system, and inadequate capabilities in oil and
gas management.

In contrast, both the Bureau of Land Management (BLM) and the Office of
Natural Resources Revenue (ONRR) have well-established regulations, policies
and procedures, data systems, and capabilities proven effective for managing oil
and gas programs throughout Indian Country. Nothing prohibits BIA from


                                                                                     5
delegating responsibilities for many of the Osage Agency’s functions by using
interagency memoranda of understanding (MOUs) with BLM and ONRR for
those agencies to use their expertise and perform specialized work while leaving
ultimate responsibility and accountability with BIA.

Support for BLM and ONRR assistance, however, is divided in the Council. One
Council member stated: “The Tribe and the Minerals Council want to keep Osage
as a BIA-only operation. They do not want BLM or ONRR involvement.” This
person further indicated that incorporating BLM and ONRR’s methods into the
regulations is fine, but wants BIA to be the controlling authority.

Another Council member stated that he liked the idea of ONRR helping the
Agency to better account for oil and gas, but does not want BLM involvement. He
said that BLM is too strict on producers, and will drive the companies out of the
county.

The Agency does not have appropriate segregation of duties for leasing,
accounting, and inspecting. All of these functions are under Agency direction. In
a similar, yet higher-level example, DOI found minimal segregation of duties to
be highly ineffective at the former Minerals Management Service (MMS). It,
therefore, divided MMS into three separate entities to ensure segregation of duties
for leasing, accounting (royalty collecting), and inspecting. BIA could contract
with BLM for inspections and ONRR for accounting. This would remedy this
structural deficiency.

 Recommendations

 We recommend that BIA:

    1. Use its authority to correct program deficiencies by modifying 25
       C.F.R. part 226 to mirror other Indian Country oil and gas regulations.

    2. Enter into MOUs with BLM and ONRR so these agencies can perform
       essential oil and gas operations and accounting activities on BIA’s
       behalf.


The Agency has Nonexistent or Vague Policies and
Procedures
Effective internal and external policies and procedures are a necessary component
to a functional oil and gas management program. Internal policies and procedures
are needed for employees to consistently and correctly perform their duties.
External guidance clarifies vague rules and regulations to oil and gas companies
that interact with the Agency.




                                                                                   6
We found systemic problems with the following internal and external policies and
procedures. This is a sweeping issue that affects the entire program.

The Agency Does Not Have Effective Internal Policies and Procedures
Agency Procedures
The Agency does not have official internal oil and gas policies and procedures,
approved by the superintendent, that guide employees in their duties and
responsibilities. We do not consider the Agency’s manuals to be valid or useful
because the manuals are incomplete, poorly written, not dated, and not approved
by the superintendent.

 Recommendation

 We recommend that BIA:

    3. Develop and implement official, comprehensive internal Agency policies
       and procedures that govern, guide, and regulate oil and gas activities.


Processing and Transportation Allowances
Processing and transportation allowances reduce the royalties paid to the
headright holders. Processing allowances are deductions by an operator for
reasonable, actual costs incurred to process natural gas. Transportation allowances
are deductions by an operator for reasonable, actual costs incurred to transport oil
or gas. Lease documents approved by the Agency’s superintendent do not address
processing and transportation allowances. Currently, the Agency merely accepts
the deductions companies report without question or verification.

 Recommendation

 We recommend that BIA:

    4. Develop and implement internal policies and procedures directing the
       Agency to verify companies’ allowances for royalty calculations, or
       restrict or disallow such allowances.


Non-Arm’s-Length Sales
The Agency may not be collecting the full royalties due on non-arm’s-length gas
sales, which are sales between affiliated parties that may have the same economic
interests. A company may be considered an affiliate if the company controls, is
controlled by, or is under common control of another company. This could
include common ownership, common officers or directors, percentage of
ownership, ownership by relatives, or other evidence of power to exercise control.
Currently, companies are not required to report non-arm’s-length sales.
Accordingly, the Agency cannot readily identify these sales. Through historical


                                                                                  7
relationships with companies, Agency officials reported that they are aware that
non-arm’s-length sales occur on a significant number of leases. For example, the
officials were aware of two contracts between affiliates that have 657 gas leases.
The Agency, however, does not have any oversight or verification procedures for
affiliated sales. Companies could therefore reduce their royalty payments by
reducing the price paid by the affiliate and thereby reduce the gross proceeds or
value used to calculate the royalty payment.

 Recommendation

 We recommend that BIA:

    5. Develop and implement internal policies and procedures for the
       Agency to oversee, identify, and verify non-arm’s-length sales
       transactions.


Applications for Permits to Drill
The Agency performs minimal analyses for applications for permits to drill
(APDs). BIA requirements are in the Fluid Mineral Estate Procedural Handbook;
however, the Agency does not follow the Handbook. We compared the Agency’s
drilling permit requirements to those listed in BIA’s Handbook and determined
that the Agency, in contrast with BIA’s management of other tribal mineral
estates, does not—

   •   review a detailed drilling plan;
   •   review a detailed surface use plan of operations;
   •   require a well plat diagram that shows all leased lands and well locations;
   •   perform an onsite inspection; and
   •   require that the operator certify its effort to provide a surface plan of
       operations with the surface owner.

Regulations for the Osage Nation’s oil and gas resources offer minimal
requirements for drilling and do not specify standards for drilling approvals.
Prudent management of drilling approvals, however, requires more analysis and
diligence than the Agency currently conducts. For instance, BIA’s Handbook
includes a seven-step drilling permit approval process, but the Agency does not
follow that process. Agency staff incorrectly stated that the Handbook does not
apply to the Osage Nation. We noted, however, that the Handbook states that the
Agency should complete the permit approval steps that BLM completes for Indian
Country. The Handbook states: “NOTE FOR OSAGE: Osage conducts all
activities normally the responsibility of BLM.”

In response to our draft report, BIA clarified that even though the Handbook
contains language regarding the Agency, it refers to the tripartite system of
minerals management, which does not extend to the Osage mineral estate. We,


                                                                                     8
therefore, modified the language of recommendation 6 below to remove the
reference to the Handbook.

We also noted that an Agency petroleum engineering technician (PET) reviews
and approves drilling permits rather than the Agency’s petroleum engineer. While
the PET may have extensive experience and knowledge, it is more appropriate
that the staff’s petroleum engineer be involved in approving drilling activities
because of the technical information involved in the permitting process. The
position description for the petroleum engineer specifically states that the
petroleum engineer “examines applications submitted by oil and gas lessees for
authority to drill, plug, or do remedial work on existing wells, and recommends
approval or disapproval to supervisor.” The position description for the PET does
not mention reviewing or approving APDs.

 Recommendations

 We recommend that BIA:

    6. Develop and implement internal policies and procedures to enhance
       the Agency’s drilling permit review process in partnership with BLM;
       and

    7. Develop and implement internal policies and procedures to require the
       Agency’s petroleum engineer to review and approve drilling permits.


The Agency Does Not Have Sufficient Supplemental External
Guidance
The C.F.R. (25 C.F.R. part 226) gives the Agency’s superintendent significant
discretion for managing the oil and gas program. Inadequate guidance for oil and
gas management has encouraged inconsistent practices by oil and gas operators
and, in some cases, underpayment of royalties. Specifically, the regulations on
natural gas processing and transportation allowances, gas royalties, and gas
measurement are insufficient and unclear. Other oil and gas regulatory agencies
provide supplemental guidance through Notices to Lessees or Onshore Orders
where the Agency’s regulations are silent or unclear. Supplemental guidance
could provide consistent interpretation of 25 C.F.R. part 226 and leave less
discretion to the Agency superintendent.

Gas Royalties
Lessees underpay gas royalties when they are selling gas at less than market price.
According to 25 C.F.R. § 226.11, royalties must be based on market price. The
Agency, however, is not enforcing the regulations when it allows the lessee to pay
less in royalties. For example, we reviewed one contract that allowed the lessee to
pay royalties based on 25 to 75 percent of the market price (based on gas volume
sold to the buyer). The contract specifically stated that the “buyer shall pay the


                                                                                   9
seller a percentage of the market price.” The lessee used the smaller percentage to
pay royalties, rather than market price, thereby reducing the royalties paid to the
headright holders.

We calculated almost $47,000 lost in potential royalty payments from eight
lessees during the month of January 2013 (see Appendix 3). These lessees paid
$178,569 in royalties. If the lessees had paid royalties based on the full market
price, however, the royalty payments would have been $225,221, a 26 percent
increase in royalties to the headright holders. The potential royalties would be
substantially higher since our analysis only covered 1 month.

In response to our NPFR, BIA stated that it disagreed with our preliminary
finding and that it may not deviate from legal requirements in the C.F.R. Further,
BIA states that its proposed regulations may address our concerns. Although the
proposed regulations do provide more specific guidance than the present
regulations, the problem still exists: the Agency is not enforcing the regulations.

 Recommendation

 We recommend that BIA:

     8. Make certain that lessees pay oil and gas royalties based on market
        price according to the current regulation, 25 C.F.R. § 226.11.


Gas Measurement
Lessees measure gas inconsistently, and how they measure gas could lead to
royalty underpayments. Most lessees measure gas based on both volume and
energy content, which represents gas quality. Others measure gas strictly by
volume, leaving out quality considerations. Doing so may allow lessees to pay
less in royalties for a better quality gas than a lessee that includes a gas quality
calculation.

The Federal regulations are vague or nonexistent for gas measurement. For
example, the regulations do not specify how lessees should measure and report
gas volume for royalty calculations. The Agency does not have external guidance,
such as Notices to Lessees or Onshore Orders, to further clarify calculating gas
royalties.




                                                                                       10
 Recommendation

 We recommend that BIA:

    9. Develop and implement supplemental Agency guidance that includes
       how lessees should measure gas and subsequently calculate royalties
       based on energy quality.


Processing and Transportation Allowances
By accepting processing and transportation allowances that companies claim, the
Agency may not be collecting the full amount of royalties for the Osage Nation’s
oil and natural gas. Federal regulation (25 C.F.R. § 226.11) allows for deductions
based on the cost to process gas, but there is no further guidance on limitations,
thresholds on the amounts of deductions, or what is included or excluded from
processing allowances. Lease documents and the regulations are silent on oil and
gas transportation allowances. As a result, the Agency accepts all allowances
claimed by the companies.

We noted inconsistencies in how companies and the Agency interpreted and
applied allowances, thereby making it difficult or impossible for the Agency to
regulate them effectively. We found one company that has used the wrong
regulations since 1977 to calculate transportation allowances. The company used
ONRR’s, or its predecessors’, regulations, which do not apply to the Osage
Nation. As a result, the Agency has allowed the company to continue to deduct
transportation allowances, reducing its royalty payments to headright holders for
over 35 years under the wrong regulations.

Furthermore, the Agency could not provide a comprehensive list of leases
claiming these allowances or determine the full impact on royalties due to
limitations by the Agency’s information system.

 Recommendation

 We recommend that BIA:

    10. Develop and implement supplemental Agency guidance to 25 C.F.R.
        part 226 to help identify and verify companies’ allowances for royalty
        calculations.


Revenues Lost due to Insufficient Tracking of Flaring
The Agency does not sufficiently track gas flaring, which leaves the headright
holders vulnerable to lost royalties from a wasted resource, and that also reduces
air quality. Gas flaring occurs when operators release and burn off excess natural
gas produced during drilling and oil extraction. This excess gas is a byproduct that


                                                                                 11
companies could sell and generate additional revenue. A necessary infrastructure,
suitable market, and sufficient price structures must be in place, however, before
flared gas becomes economically feasible.

One Council member stated: “Flaring has gone on for years and is a common
practice.” He noted, however, that there is not always a pipeline to market the gas.
Flaring is, therefore, a common practice, but “the issue of flaring and pricing
flaring has been ignored.”

The Osage Nation’s regulations about gas flaring leave significant interpretation
to the Agency superintendent. Specifically, 25 C.F.R. § 226.37 states: “The
Superintendent shall have the authority to impose such requirements as he deems
necessary to prevent waste of oil and gas and to promote the greatest ultimate
recovery of oil and gas.” While some companies have requested approval from
the superintendent to flare gas, the superintendent has not documented all flaring
decisions. Agency personnel informed us that documented decisions are in the
lease files, but they could not locate the decisions without manually searching
each lease file.

In addition, some companies are not paying royalties on flared gas because they
have not received appropriate guidance on how to value the gas. One company is
reporting volumes on flared gas, but has refused to pay royalties on the gas. In
January 2013, the Agency notified the company that the superintendent must
approve flaring and the company must pay royalties on any gas flared. The
company has yet to pay these royalties. Another company is holding $50,000 for
flaring royalties until it receives pricing guidance from the Agency.

The acting superintendent approved some instances of flaring; however, she did
not give the Agency’s Accounting Branch this information to account for the
royalties properly. The Agency, therefore, accepts whatever a company reports on
price and volume for flared gas. We also found two instances in which a company
is reporting flared gas but did not have an approval on file. No one at the Agency
verifies approved flaring or certifies that companies with approval accurately
report flaring.

 Recommendations

 We recommend that BIA:

    11. Identify all companies that flare gas and verify that each company that
        flares gas has documented approval; and

    12. Develop and implement Agency policies and procedures to verify that
        companies properly report volumes on flared gas and pay appropriate
        royalties.




                                                                                  12
Bonds are Insufficient
The Agency allows bank certificates of deposit (CDs) as bonding instruments, but
current regulations do not. Using CDs increases the risk that the Agency may not
have funds available should the CDs require liquidation for activities like
plugging abandoned wells. According to 25 C.F.R. § 226.6, lessees must furnish
corporate surety bonds with each lease. A surety bond is a third-party agreement
to provide compensation should the lessee fail to perform specified acts, such as
plugging and abandoning a well, within a stated period. The surety company
assures the Agency that the lessee will perform a specified action or that the
surety company fulfills the contract in the event of the lessee’s default. In
contrast, a CD is a promissory note issued by a bank and restricts CD holders
from withdrawing funds on demand, but it is still possible for the holder to
withdraw the money. We recognize that BLM uses CDs as bonding instruments
for its oil and gas leases and that the proposed new regulations for the Osage
Nation may allow CDs.

“Escrow agreements” accompany CDs. There are 392 CDs totaling $5.05 million
held in escrow for the Agency by banks. Escrow contract dates range from 1987
to 2013. Agency staff recollected that in the late 1980s, it became difficult to find
bonding companies willing to underwrite oil and gas bonds, so the Agency
approved a policy to accept bank CDs in escrow. Agency staff members were
unable to locate this policy.

Agency escrow agreements specify that the bank will automatically reinvest CDs
at maturity until the escrow agreement is terminated. We reviewed 20 of the 392
CDs and found one CD for $5,000 that had matured in 2008. The accompanying
escrow agreement included the automatic reinvestment clause, but the CD was not
renewed. We are concerned that this CD’s funds were remitted back to the lessee
at maturity and are therefore not being reserved for Agency use should the need
arise. The potential exists for other similarly matured CDs.

We also learned the Agency does not periodically verify CD funds, either by
reviewing bank statements or by telephone verification with the issuing banks.

 Recommendation

 We recommend that BIA:

     13. Follow existing regulations requiring corporate surety bonds. If the
         proposed regulations allow using CDs, regularly review all escrow CDs
         to verify their maturity and replace matured CDs.




                                                                                   13
Agency Environmental Policy and Practice Has
Exposed it to Litigation Risk
Compliance with environmental laws protects the environment as well as the
Osage Nation’s resources. According to the National Environmental Policy Act
(NEPA), Federal agencies are to “integrate environmental values into their
decision-making processes by considering the environmental impacts of their
proposed actions and reasonable alternatives to those actions.”

A high-ranking Agency official commented: “Minerals Council members are not
informed about the importance of environmental assessments. They may question
why they need to be done. They note that we’ve been approving leases this way
for years and question why they need to change the process.”

DOI and the Agency are responsible, however, for managing the Osage Nation’s
lands appropriately; being accountable to Federal laws, rules, and regulations; and
fulfilling their mission of stewardship. Central to those responsibilities is the
NEPA, which requires agencies to evaluate whether a given Federal action will
have a significant environmental impact.

The Agency currently relies on a single environmental assessment from 1979 for
its Osage mineral leasing NEPA compliance. The fact that the Agency has not
conducted any further NEPA review of these activities since its 1979
environmental assessment has exposed it to litigation risk under the NEPA. We
have noted this litigation risk throughout the course of our evaluation, and now
such lawsuits have been filed.

BIA is Currently in Litigation Over Its Alleged Non-Compliance With
the National Environmental Policy Act
As of the date of this report, the Department of Justice is actively litigating claims
in the United States District Court for the Northern District of Oklahoma that
allege the Agency’s 1979 environmental assessment fails to sufficiently fulfill its
NEPA procedural requirements. Because the question of the Agency’s
compliance with the NEPA is a matter of live litigation between the United States
and its court opponents, with the matter ultimately to be settled by the court, we
will only describe the facts as we know them rather than draw legal conclusions
on these matters.

The Agency only completes a categorical exclusion during approval of the lease
and does not evaluate the environmental impact of any actions beyond lease
approvals. The Agency also does not currently conduct a site-specific
environmental assessment for every APD. We selected a sample of 34 out of 749
APDs approved from FYs 2010 to 2013, and developed a list of 8 key
components used by BLM and BIA to approve APDs. We reviewed 5 of the 34
APDs and concluded that environmental assessments were not completed for any
of them.



                                                                                   14
Because the five APDs we examined had very limited information, we determined
that we did not need to review additional APDs. As mentioned above, instead of
conducting site-specific environmental assessments for each APD, the Agency
relies on a 1979 environmental assessment covering all Osage mineral leasing
activities in the aggregate, which the Department of Justice and BIA claim to be
adequate under the NEPA.

BIA informed us that the Agency is working with BLM to prepare a new
environmental impact statement under the NEPA, but it may be 5 years from
completion. On July 15, 2014, the Agency’s acting superintendent sent a Notice
to Lessees that requires applicants and lessees to work with the Agency to
“prepare a draft environmental assessment (EA) for all future proposed actions
requiring BIA approval,” which BIA will review to “evaluate the impacts of the
environmental issues related to the proposed action.” As described in the notice,
lessees would only be required to submit environmental assessments for “future
proposed” actions. According to the Office of the Solicitor, however, the Council
has filed an administrative appeal of this notice, which has consequently been
stayed pending the outcome of that appeal.

 Recommendation

 We recommend that BIA:

     14. Develop and implement oversight procedures to ensure compliance
         with the NEPA for all Osage Nation oil and gas activities.


Agency Does Not Have Sufficient Environmental Staff
The Agency has a critical need for permanent environmental staff. The highly
technical and environmentally sensitive NEPA activities require a specialist with
NEPA knowledge and expertise, who can focus on environmental issues essential
to adhering to the NEPA. The Agency does not have a permanent environmental
staff, and, as a result, the petroleum engineer, who is now eligible to retire, signs
all categorical exclusions for the Agency. Having NEPA actions approved by
non-environmental Agency personnel increases the risk of challenges and legal
actions against the Agency’s NEPA actions. The Agency recognizes the need for
additional staffing and has requested environmental protection staff.

 Recommendation

 We recommend that BIA:

     15. Ensure that the Agency has permanent environmental staff to address
         the NEPA requirements.




                                                                                   15
Agency’s Planning and Mineral Resource
Management is Insufficient
Sufficient strategic planning is necessary to ensure effective management of the
Osage Nation’s mineral estate.

The Overemphasis on Gauging
The Agency places unjustified emphasis on measuring oil tank volumes, or
“gauging,” with minimal benefits. In addition, it has no strategy for gauging. One
Council member said that the PETs simply drive around Osage County looking
for full tanks without a strategy for gauging. Therefore, the process is inefficient.
The Agency also identifies few differences between what companies report and
the Agency’s calculations. Finally, because the Agency conducts gauging at the
tank, there is a higher risk of theft that would not be identified by present methods
of gauging. For example, oil could be stolen before it reaches the storage tanks.

Some Council members place a greater emphasis on gauging over inspections.
One Council member said the Agency is wasting its time doing lease inspections
and is not doing enough gauging. The Council member indicated the Agency
should do more gauging to benefit the headright holders because that is BIA’s
trust responsibility.

We reviewed all Agency gauging records for a 3-year period ranging from August
23, 2010, to August 20, 2013, and calculated the total variance. Out of 1,020
gaugings, we found companies overreported 250 barrels and underreported 193
barrels for a net of 57 more barrels of oil compared to Agency calculations.
Companies, therefore, overreported volumes of oil and paid more royalties than
they owed.

The Agency only requests corrections for underreporting when discrepancies
reach a half-barrel or more. Of the 193 underreported barrels over the 3-year
period, 119 fell within the half-barrel or more threshold. The Agency does not
track corrections and, therefore, had no record of actually collecting the additional
royalties. If the Agency had requested corrections for underreporting for the 119
barrels, it would have collected an additional $11,000, totaling only about $2,200
in royalties for the headright holders. The Agency had two, full-time staff
members dedicated to gauging for the majority of the 3-year period, and that
resulted in minimal benefits. In addition, Agency officials admitted they do not
find many errors, and of those they do identify, the variances are usually caused
by human error as opposed to intentional misreporting. We conclude, therefore,
that gauging is ineffective and distracts from other activities that could provide
more benefit to the headright holders.

The gauging process the Agency uses is inefficient. Of the 1,020 gaugings, the
Agency gauged only 509 different tanks on 305 of its 4,453 leases, representing
only 6.8 percent of the Osage Nation’s leases. PETs gauged 1 tank 14 times in the
3-year period, and tanks on 1 lease 24 times in the same period. Since


                                                                                   16
performance measures require a particular number of tanks gauged per day, we
believe PETs are encouraged to gauge a certain number of tanks as opposed to
strategically selecting tanks.

In addition, gauging is inefficient due to the amount of time and effort it takes to
complete gauging activities. To complete gauging activities, PETs gauge a tank
when it is full and then return to the tank to determine if the purchaser picked up
the oil. If the purchaser picked up the oil, the PET conducts a bottom gauge,
which determines how much oil the purchaser removed, and then calculates the
volume sold, which they compare to the company’s run ticket (the source
document for recording the amount of oil sold). From October 2012 to July 2013,
only 8 percent of tanks checked were full and ready for gauging, but PETs only
completed the gauging on 4 percent. This is an inefficient use of the PETs’ time.

In response to our Notices of Potential Findings and Recommendations (NPFRs),
BIA wrote that a decreased emphasis in gauging is contrary to a court-approved
settlement with the Osage Nation. We found, however, that the settlement
agreement only requires the Agency to report its gauging activities. We believe,
therefore, that the Agency can realign its efforts to more efficient and effective
activities.

 Recommendations

 We recommend that BIA:

     16. Realign emphasis on gauging to other, more effective, oversight
         activities such as inspections, and instead of gauging for production
         verification, only gauge during inspections and for purposes of
         determining possible instances of fraud.

     17. Reevaluate existing gauging practices and develop and implement a
         more efficient and effective gauging program, if the Agency continues to
         emphasize gauging. This could include risk-based gauging.


Poor Strategy for Lease Inspections
We found that the Agency has no strategy or defined methodology for conducting
quality inspections. Instead, it focuses on completing a specific number of
inspections. The absence of a strategy and the poor quality of the inspections
could result in underpaying royalties. An Agency official said that the Tribe does
not care about inspections, only about gauging.

According to a BLM official, lease inspections are important because they can
address a wide variety of issues or target specific issues. He said that BLM
inspections are not just an activity where someone drives around a lease and looks
around. Rather, he said, lease inspections cover important issues such as security,


                                                                                  17
environmental concerns, production, seal numbers on tanks, measurements,
records review, and plugging and abandonment.

Without a strategy, the Agency may encourage inspections of small, easily
accessible, simple leases, perhaps at the expense of higher-risk leases. Rather than
inspecting leases according to an assigned, risk-based strategy, PETs select leases
by driving around their assigned area and personally select leases to inspect. In
contrast, BLM completes four kinds of lease inspections: drilling, production,
abandonment, and surface. BLM also prioritizes its drilling, production, and
abandonment inspections based on criteria such as high-priority drilling, high-
priority plugging and abandonment, and Federal and Indian production cases with
high risk factors.

In addition, Agency performance standards encourage lease inspection quantity
over quality, and do not incorporate a risk-based strategy. According to the PET
performance standards, to be fully successful, inspectors must inspect four to five
leases per day for compliance with regulations, production volumes, applicable
laws, lease terms, and environmental standards. PETs also must complete other
duties, such as gauging, attending to landowner complaints, and cultural resource
assessments. The amount of time it takes to conduct an effective lease inspection
precludes conducting four to five lease inspections per day, and diverts staff from
other responsibilities. A supervisory PET told us that depending on complexity,
lease inspections could take anywhere from 1 hour to a full day or more, not
including travel time.

We also found that many PETs appear unprepared to inspect leases effectively.
Because they do not know which leases they are going to inspect, they do not
bring documentation to the field such as site maps, production data, or flaring
approvals. Inefficient preparation inhibits their ability to accurately check for
compliance with lease terms.

Ineffective lease inspections can result in underpaying royalties. We interviewed a
BLM petroleum engineer who visited the Osage Nation in October 2012 and
witnessed oil and gas related inspections. He indicated that a potential for royalty
underpayment exists for several reasons:

   •   Gas meters are not built or operated in accordance with industry standards.
   •   Gas sampling was not done in accordance with industry standards.
   •   Operators may have inappropriately taken deductions for use of produced
       oil or gas off lease without paying royalties.

Little training for Agency staff to conduct inspections, unenforceable regulations,
insufficient staff, and an unclear inspection strategy could exacerbate problems.




                                                                                    18
 Recommendation

 We recommend that BIA:

     18. Identify all high-risk leases, develop and implement a risk-based strategy
         to annually inspect all high-risk leases, and include a plan to inspect all
         leases over a specified time.


Insufficient Lease Inspection Tracking
The Agency’s tracking information for lease inspections is insufficient. The
Agency started a new tracking system in SharePoint as of January 2013. The
system, however, only tracks instances of noncompliance. We found instances in
which the Agency listed some leases twice and incorrectly recorded some items.
For example, one lease was listed twice because it was recorded with a different
lease number format. As a result, the status was listed as both “pending” with
final notice and “open” with initial inspection. The Agency also incorrectly
recorded the initial inspection dates.

The Agency also does not track information necessary to identify high-risk leases.
For instance, the Agency does not identify the number of violations, days of
noncompliance, fines levied, and the nature of violations, which the Agency could
use to develop a lease inspection strategy.

 Recommendation

 We recommend that BIA:

     19. Upgrade the Agency’s inspection management system to include all
         leases inspected and the risks associated with the leases.


Little Enforcement for Operator Noncompliance
The Agency allows lessees to operate for a considerable length of time without
addressing incidents of noncompliance identified during inspections. Examples of
noncompliance include leaking pipelines, sloppy conditions, gates or fences in
need of repair, and roads in need of repair. For example, we reviewed a lease
inspection that took the Agency 309 days to get the operator to correct
deficiencies identified during the initial inspection. In this case, the lease operator
continued to operate for almost a year in violation of lease terms.

According to 25 C.F.R § 226.42, the Agency’s superintendent can fine companies
up to $500 per day for noncompliance. Fines deter noncompliance and also act as
an incentive for timely compliance with lease or Agency requirements when a
noncompliance is identified.



                                                                                    19
Typically, PETs conduct an initial inspection and if they identify a deficiency, the
Agency grants the company a specified time to make corrections. Agency
personnel told us that the Agency assesses fines following the third visit, but we
found that it might not assess fines for noncompliance until after the fourth
inspection.

For one inspection we reviewed, the Agency conducted the initial inspection on
November 29, 2011, and identified deficiencies. The Agency conducted a second
inspection on January 27, 2012; a third inspection was completed on February 23,
2012; and a fourth inspection on May 10, 2012, indicated the company had not
yet corrected the deficiencies. The Agency completed a fifth and final inspection
on October 3, 2012, and found that the company had corrected the deficiencies.
The Agency only fined the company $300 per day for the 145 days from May 11,
2012, to October 3, 2012. The Agency sent a letter to the company November 9,
2012, assessing it a fine of $43,500. If the Agency had fined the company $300
per day starting November 29, 2011, when the deficiencies were first identified,
the fine would have been $92,700 ($300 for 309 days).This resulted in potential
lost revenue of $49,200 ($92,700 - $43,500) (see Appendix 3).

 Recommendation

 We recommend that BIA:

    20. Develop and implement guidance to ensure the Agency consistently
        applies and levies fines in a timely manner.


Lease Termination Rarely Used to Enforce Lease Terms
We found that the Agency does not always terminate leases for nondevelopment,
nonproduction, or noncompliance with lease terms. When the Agency terminates
leases for nondevelopment, nonproduction, or noncompliance, the parcels become
available to other companies to lease the land, develop the lease, and thereby
produce royalties for the headright holders. It is therefore important that the
Agency timely and consistently terminate these leases.

The Agency may terminate leases if the company did not drill a well during the 2-
year primary term, if there was no production during the primary term, or if a well
has not produced for 6 months. Osage Suite (the Agency’s oil and gas database),
however, cannot identify leases that are in the primary term or that have not
produced for 6 months. This information would allow PETs to visit the lease site
and verify whether the leases are producing and complying with lease terms.

According to the Agency’s supervisory PET, PETs discover leases qualifying for
terminations by “word of mouth,” are “hit and miss,” and happen by “luck.” For
example, other interested parties may inform the Agency that a well is not



                                                                                  20
producing, or a PET may discover a lease needs termination while driving around
his or her assigned area.

 Recommendation

 We recommend that BIA:

     21. Develop and implement an Agency action plan to identify and track
         leases that it should terminate for nondevelopment, nonproduction,
         and noncompliance with lease terms.


Ineffective Strategy for Plugging and Abandoning Wells
We found that the regulations for plugging and abandoning wells leave significant
discretion with the Agency superintendent. Specifically, 25 C.F.R. § 226.28 states
that the “lessee shall not shut down, abandon, or otherwise discontinue the
operation or use of any well for any purpose without the written approval of the
superintendent. All applications for such approval shall be submitted to the
superintendent on forms furnished by him/her.”

We learned that the Osage Nation has had a contract to plug wells (Public Law
93-638) and for the last 7 to 8 years has maintained a pool of money to plug wells.
It initiates the plugging process by obtaining a list of wells that the Agency targets
for plugging. The Agency has identified 1,401 wells for plugging. The Agency
provides the plugging instructions, but the Council chooses which wells to plug.
Agency staff members provided records indicating that 30 wells were plugged
from January 2010 to July 2013. The Council used the pooled funds to plug 3 of
the targeted 30 wells. Lessees plugged the remaining wells.

Lessees must provide bonds to cover plugging and abandoning, but the bonds
typically used to pay for plugging and abandoning may not be enough to cover the
costs. The Agency only requires a bond of $5,000 per quarter section of a lease,
which could contain multiple wells. A knowledgeable BLM individual told us that
the wells on Osage Nation lands may cost $10,000 to $20,000 per well to properly
plug and abandon. If this potential cost was applied to the 1,401 wells identified
for plugging, BIA’s financial liability ranges from $14 million to $28 million.

We recommended in our NPFR that the Agency identify all wells to be plugged
and abandoned, and develop a prioritized, risk-based list of these wells. BIA
disagreed with our recommendation, explaining that historically the Council has
not plugged wells so that the wells can potentially be operated later as technology
advances the ability to recover additional oil and gas. In addition, BIA responded
that there is no statute or regulation requiring the Secretary of the Interior to
establish a plugging program, plug wells, or pay for plugging. Despite BIA’s
argument, we are still making the recommendation because we know the Council
actively plugs wells using the Public Law 93-638 contract, and we know the


                                                                                   21
Agency has identified 1,401 wells for plugging. Even though there may not be a
legal or regulatory requirement to do so, plugging and abandoning nonproducing
wells decreases the risk of damage to the environment or injury to people. In
addition, the cost of plugging and abandoning wells will most likely increase in
the future, which will create an even larger financial liability.

 Recommendation

 We recommend that BIA:

    22. Develop and implement a strategy for the Agency to identify all wells
        to be plugged and abandoned, develop a prioritized list based on risk,
        and work with the Council to plug high-risk wells.


Agency has no Mineral Resource Assessment
The Agency has not assessed the value of mineral resources on the Osage
Nation’s estate. A resource assessment is critical in allowing the Agency and the
Council to develop an effective, long-term energy management strategy. A
resource assessment would also quantify the Osage Nation’s energy resources and
allow the Osage to estimate how long the resources will generate revenue. A local
geologist estimated that the estate was worth $4 billion, based upon historical sale
values of the land and not the available mineral resource. Agency officials expect
that operators will drill an additional 7,500 wells between FYs 2012 and 2027,
generating $13.6 billion in estimated royalties. An accurate valuation of the estate
would also help the Agency determine funding and staffing needs. Finally,
knowing the resource quality and value would allow the Agency and Council to
effectively develop the energy resources to maximize production.

The U.S. Geological Survey (USGS) can assist the Agency in completing this
assessment at no cost to the Osage Nation. USGS researches and assesses the
location, quantity, and quality of mineral and energy resources throughout the
country. Its Energy Resources Program provides reliable and impartial scientific
information on geologically based energy resources, such as oil and natural gas. It
then uses the research to inform policymakers about energy resources and to
manage energy resources on Federal lands. USGS has assessed sites including the
San Juan Basin Province (New Mexico and Colorado) and the Bakken and Three
Forks Formation (Montana and North Dakota).

BIA disagreed with our NPFR’s recommendation to work with USGS to request a
mineral resource assessment of the Osage Nation’s mineral estate, but said it
would facilitate contact between USGS and the Osage Nation if the Council
requested it. We believe it would be in the best interest of the Agency to know the
size and energy potential of the Osage Nation’s mineral estate for long-term
planning.



                                                                                 22
 Recommendation

 We recommend that BIA:

     23. Work with USGS’s Energy Resources Program to request a mineral
         resource assessment of the Osage Nation’s mineral estate.


The Agency has Ineffective Data Management
Proper data management allows units to readily access important data records to
effectively and efficiently manage the Agency’s activities. This includes
accounting systems, oil and gas lease records, electronic inventories of well
locations, and copies of leases. Reliable and accurate data is critical to the Agency
for informed decision making, planning, strategizing, and prioritizing energy
activities.

Ineffective Oil and Gas Royalty Reconciliations
The Agency does not have an effective process for completing oil reconciliations,
which are used to verify that the royalty payment made by the purchaser has been
correctly calculated and paid. It uses an overly complicated Excel spreadsheet to
complete these reconciliations.

We found the spreadsheet so complex and poorly structured that we could not
quantify the number, or dollar amount, of exceptions (differences between data
identified in the reconciliation process) identified or resolved. The Agency
identifies all exceptions manually by comparing the purchaser check detail to the
purchaser’s production data and enters the exceptions onto the Excel spreadsheet
as a means of documenting the exceptions identified.

The Agency’s oil reconciliation process consists of comparing purchaser reports
to purchaser payments. Ideally, the Agency should reconcile its records to an
independent information source, such as the lessee reports or third-party
statements. Because the Agency does not verify the data with third-party reports,
there is an increased risk of erroneous or fraudulent royalty information that could
go undetected.

When the Agency did identify exceptions, it did not always complete follow-ups
and resolutions. The Agency assigned an employee to follow up on unresolved
exceptions, but the employee no longer performs this duty. As a result, the
Agency recently reassigned an accounting technician whose job was to identify
oil royalty exceptions, but not to reconcile them. The technician’s new role is to
begin the reconciliation process of unresolved exceptions dating back to 2011. As
a result, there is currently no one identifying and reconciling current exceptions.

In addition, the Agency’s gas reconciliation process is inefficient. It simply
involves entering data from paper statements into another spreadsheet to verify


                                                                                  23
the math on the statements. These paper statements appeared to be statements
from purchasers’ electronic databases. The Agency’s gas accounting technician
manually entered the purchasers’ data into an Excel spreadsheet to verify the
calculations and the headright holders’ royalty. The royalty amount, however,
already appears on the paper statement. If the Agency kept this information
electronically, the gas technician would only need to verify the equations.

Similar to oil, the Agency does not verify the gas data with third-party reports.
Many third-party measurement reports, such as meter statements required for each
well, are missing and not entered into the reconciliation process for gas
production. In addition, the Agency does not compare third-party reports received
and input into the spreadsheet against the purchaser or lessee data. This is
inefficient and defeats the purpose of entering them into the reconciliation.

If the Agency finds an exception, its accounting staff will make the lessee
resubmit a revised lessee statement to match what the purchaser submitted,
thereby eliminating the purpose of comparing the differences and investigating
the cause. Until the lessee submits the revised statement, the exception remains
undocumented in the reconciliation spreadsheet. Thus, the lessee’s statement
serves no purpose in the reconciliation process.

We know that ONRR’s royalty accounting system is robust and works primarily
with electronically submitted data; including production, sales, and royalty data;
directly from lessees and operators. Should the Agency use ONRR’s system, it
would eliminate the need to conduct many labor-intensive reconciliations and
analyses. Using ONRR’s system would also address several of the issues we
identified in this section.

 Recommendations

 We recommend that BIA:

    24. Reconcile oil and gas exceptions to independent or third-party sources
        of information, and follow up and resolve any identified differences in a
        timely manner.

    25. Enter into an MOU with ONRR to implement ONRR’s electronic data
        system.


Agency Does Not Have Accounting Reconciliation Thresholds
Accounting reconciliations are critical to error identification and royalty
verification. When performing reconciliations, the Agency does not have a
methodology for prioritizing the reconciliation work. As a result, Agency staff
members spend time reviewing less significant exceptions (differences between
data identified during the reconciliation process) rather than focusing on larger


                                                                                    24
exceptions. One Agency employee identifies and reconciles exceptions as little as
25 cents. As a result, it appears the Agency tries to review everything, but with
limited staff, it cannot timely reconcile the identified problems.

For both oil and gas, we found that the Agency does not use materiality thresholds
(a predetermined dollar amount or percentage that would trigger review and
reconciliation) to determine which exceptions to review. One Agency official
agreed that setting thresholds would be useful, but the Council believes that every
penny matters when resolving exceptions. The official contended that the Agency
does not have the choice to set thresholds, but we found there is no policy to
prevent it from doing so.

We also identified an inefficient use of an Agency employee’s time. The full-time
job of one accounting technician requires entering oil lessee reports into Osage
Suite. The Agency uses Osage Suite to document production totals, but it does not
use the oil lessee report data for anything in the accounting process. Unless this
effort is for a value-added purpose, such as reconciling the data to purchaser data,
we believe this procedure is unnecessary.

 Recommendations

 We recommend that BIA:

     26. Develop and implement Agency sampling thresholds and follow up on
         any identified discrepancies in a timely manner.

     27. Reconsider its practice of entering oil lessee reports into the Osage
         Suite system.


Osage Suite is Insufficient for Data Management
We identified several issues with Osage Suite that prevent the Agency from
effectively managing well and lease information. First, Osage Suite does not
allow accurate input of all well data. For instance, the Agency can enter only four
wells under each contract. A new contract number must be created if the lease has
more than four wells. In addition, the Agency may list the four wells as different
kinds of wells—oil, natural gas, casinghead gas (a byproduct of oil), or coal bed
methane—which may be inaccurate.

Recording data in this manner is a problem because if one lease has many wells,
the lease will be recorded under different lease numbers even though it is the
same lease. In addition, wells may be listed in the system as one type when it is
another type. As a result, the system is not reliable because it does not maintain an
accurate listing of the types of wells.




                                                                                  25
Second, Osage Suite cannot account for “wet” gas (natural gas and natural gas
liquids), which includes determining the correct price and volume for processed
gas and natural gas liquids. The accounting technician must manually create
entries into an Excel spreadsheet to separate and calculate processed gas and
natural gas liquids. This increases the risk for error due to additional manual
entry, and wastes time since a proper system would automate this function.

We also found that two purchasers submitted their production data electronically
despite the fact that Osage Suite does not have external connections and cannot
rely on data from external sources. The purchasers submitted their data by
sending it to a third-party company. The third-party company then forwarded the
information to a BIA information technology specialist outside of the Agency,
who entered the data into the system. Agency personnel did not know how this
data was entered into the system, an example of insufficient understanding and
oversight of the process.

The Agency maintains that purchasers will not want to submit data electronically,
but as noted, two purchasers have done so. Electronic submission eliminates
much of the manual data entry by Agency personnel, which would reduce error
and time required to process the data.

ONRR’s accounting system allows for direct electronic data input from lessees
and operators. The system contains upfront edits to allow accurate data
submission from the oil and gas companies. Lessees or operators, therefore, may
be unable to submit electronic data if it includes incorrect pricing, incorrect
royalty rates, or coding errors. The system also maintains multiple data elements
that are not part of Osage Suite, including processing and transportation
allowances, production data, flaring volumes, and other information necessary for
accurate reviews.

 Recommendation

 We recommend that BIA:

     28. Enter into an MOU with ONRR to implement ONRR’s system to
         address the Agency’s database deficiencies.


Agency Does Not Verify Royalty Compliance
The Agency does not conduct compliance reviews, audits, or data mining for
royalty compliance. For example, we found that the Agency does not check
compliance against the terms of individual gas contracts. It accepts whatever the
purchaser reports. Since each gas contract is different and there are many
elements stipulated in gas contracts that are critical in calculating gas royalties,
the Agency should validate these elements against the calculations so that
incorrect royalty payments can be detected.


                                                                                   26
As mentioned above, Osage Suite does not allow accurate input of data. In
addition, the Agency does not have enough staff to complete these types of
reviews. The Agency, therefore, does not have the ability to complete the
compliance reviews, audits, or data mining necessary to verify royalty
calculations.

ONRR, by comparison, conducts data mining, compliance reviews, and audits,
which generate accurate production, sales, and royalty data. ONRR reported that
for every dollar it spent on compliance activities from FYs 2009 to 2011, it
returned almost $4 to taxpayers. We believe ONRR’s audit and compliance
management capabilities would offer the Agency the highest level of royalty
verification, and it would assure that headright holders receive the full amount of
royalties for their oil and gas resources.

 Recommendation

 We recommend that BIA:

    29. Enter into an MOU with ONRR to conduct compliance reviews, audits,
        and data mining for royalty compliance and verification.


Agency Does Not Have Electronic Mapping for Backup
The Agency does not have an electronic inventory of well locations and lease
information. Historically, its employees have handwritten this information on a
linen plat map (see Figure 1). In addition, the Agency has not updated its plat
maps since its staff cartographer retired in June 2013. Manually plotted, hardcopy
plat maps are a key source of Agency lease and well information.




                                                                                 27
Figure 1. Linen plat map used to identify well locations and help maintain lease information.

Although plat maps are not the official record-keeping method for well data, the
public frequently uses them to identify what tracts are available for leasing. The
official records are based upon the lease files that contain well locations. As a
result, the public and the Agency must look at numerous paper leases and drill
records to identify the location of leases and wells. If the well and lease
information is not kept up to date, this could lead to inefficiencies in identifying
well locations and to significant problems in recreating the plat map if lost,
destroyed, or stolen. One Council member said that tracts of land are sometimes
nominated for lease or concession agreements, only to find that the tract is already
in production.

A more efficient process would be to use an electronic format for data
management. For example, DOI’s Division of Energy and Minerals Development
developed the National Indian Oil & Gas Evaluation & Management System
(NIOGEMS) software application to assist energy- and mineral-producing Indian
tribes in managing their energy and mineral resources. The application provides
access to well locations, production, lease, agreement, and other natural resource
data on Indian lands. The Division provides the software, data, training, and
learning support at no cost to a requesting tribe and to Federal Government
agencies. A high-level BIA official told us that Council members viewed a
presentation of NIOGEMS but said the system “wasn’t for them.”



                                                                                           28
 Recommendation

 We recommend that BIA:

    30. Work with the Division of Energy and Minerals Development to
        implement the NIOGEMS program for electronic lease file
        management, and Agency lease and well mapping.


Lease Files not Appropriately Maintained
We found that Agency staff was not able to locate lease files and documents we
requested because the Agency does not adequately maintain them. The Agency is
required to keep and maintain proper lease files. While the Agency has a system
in place to track possession of lease files using a “checkout card” in each lease
file, we found that the Agency does not use the checkout system. One Agency
official explained that no one enforced the system, and over time, employees
stopped using it.

Lease files are the official and only record. Since lease files are not kept
electronically, then if lost, Agency personnel would have no way to recreate
everything maintained in a file.

The Indian Affairs Records Management Manual (IARMM) requires each office
within BIA to implement and administer an effective and efficient records
management program to create, maintain, and dispose of records. We found that
the Agency’s checkout system of lease records does not qualify as a records
management program because it does not adequately maintain lease files and,
therefore, does not comply with the IARMM.

 Recommendation

 We recommend that BIA:

    31. Develop and implement a records management program for Agency
        lease files to comply with the IARMM to include using the NIOGEMS
        program for electronic lease file management.


Poor System for Lease Sales Tract Nominations
We found a risk that tracts nominated for lease sale could already be leased and
erroneously advertised for sale. We found that procedures for identifying tracts
nominated for lease sales are labor intensive. That is, the responsible employee
must conduct numerous manual steps to verify that tracts of land are available
prior to lease sales. These steps include—

   1. searching Osage Suite by legal description;


                                                                                   29
   2. reviewing a concession map to determine whether the tract is in the
      concession area;
   3. reviewing the plat map; and
   4. reviewing active lease files.

Furthermore, the Agency manually tracks all information related to tract
nominations on a spreadsheet. In FYs 2010 through 2013, companies or
individuals nominated 668 tracts for sale, but 155 tracts, or 23 percent, were not
available for lease. Our review of the 155 tracts disclosed that—

   •   38 percent were already leased to another individual or company;
   •   32 percent were located within a concession area (an area that includes a
       large amount of leased acreage for more complex oil and gas exploration);
       and
   •   15 percent had to be withdrawn because the tracts were nominated when
       the Council was negotiating a concession agreement.

Although the Agency did identify the unavailable tracts before the lease sales, by
manually researching tract availability, Agency staff members were not efficiently
processing available tracts. If tract nominations were kept electronically, then
error risk would be significantly reduced and it would improve nomination
processing. A more efficient and accurate tract management process would use an
electronic format such as the NIOGEMS.

 Recommendation

 We recommend that BIA:

    32. Work with the Office of Indian Energy and Economic Development to
        implement the NIOGEMS program for the Agency’s tract management.


Inaccurate Annual Reporting
It is important for the Agency to maintain accurate acreage information so that
both the Agency and the Council are aware of the acreage available for leasing.
We found that Agency staff members manually compile annual lease statistics to
identify the number of leases added and terminated and the leases’ related
acreage. Agency staff obtains the necessary information from Osage Suite and
then manually prepare an annual report for the Regional Office. We learned,
however, that the Regional Office has not asked for the report in 2 years. We
reviewed the reports for FYs 2010 through 2013 and identified a calculation error
by which the Agency overstated the total lease acreage by 38,572 acres. Manually
compiling this information increases the risk of reporting errors.




                                                                                     30
Recommendation

We recommend that BIA:

   33. Automate its lease acreage data to ensure accurate information is
       available to the Agency and Council.




                                                                           31
Conclusion and Recommendations
Conclusion
The Osage Nation’s mineral estate has the potential to generate billions of dollars
of oil and gas royalties and provides annuity payments to headright holders. As
noted in this report, BIA faces challenges to correct the deficiencies of a
fundamentally flawed program. These deficiencies include inadequate oil and gas
policies and procedures, problems in environmental compliance, poor planning
and mineral resource management, and inefficient data management. A strong
management emphasis from the Agency is needed to bring program consistency
and guidance over the Osage Nation’s oil and gas operations to ensure that
headright holders receive the full royalties they are due.

Recommendations Summary
We recommend that BIA:

   1. Use its authority to correct program deficiencies by modifying 25 C.F.R.
      part 226 to mirror other Indian Country oil and gas regulations.

       BIA’s Response: BIA did not concur with this recommendation. As a
       result of the tribal trust settlement, BIA and other interested parties
       discussed mirroring other Indian Country oil and gas regulations to
       improve managing the minerals estate. The Council and other interested
       parties voiced concerns regarding making Osage mirror other Indian
       Country oil and gas regulations, and the Negotiated Rule Making
       Committee tried to balance these concerns with the need to improve the
       current regulations. The proposed rule, however, does include some
       regulations that would mirror BLM’s and ONRR’s regulations.

       OIG’s Reply: The changes and improvements BIA is undertaking as well
       as the rulemaking will lead to greater accountability and oversight, which
       is the intent of this recommendation. We, therefore, consider this
       recommendation resolved but not implemented. We will refer this
       recommendation to the Office of Policy, Management and Budget (PMB)
       to track implementation.

   2. Enter into MOUs with BLM and ONRR so these agencies can perform
      essential oil and gas operations and accounting activities on BIA’s behalf.

       BIA’s Response: BIA partially concurred with this recommendation. BIA
       is entering into an agreement with ONRR to perform the accounting
       activities on BIA’s behalf. BLM will provide field inspection training for the
       Agency’s PETs on properties within Osage County. In addition, four Agency
       PETs have completed BLM’s certification course and the remaining seven
       are scheduled to complete the certification course in FYs 2015 and 2016.


                                                                                  32
   OIG’s Reply: BIA will be using ONRR’s and BLM’s technical expertise
   to improve the Agency’s oil and gas program, which is the intent of the
   recommendation. We, therefore, consider this recommendation resolved
   but not implemented. We will refer this recommendation to PMB to track
   implementation.

3. Develop and implement official, comprehensive internal Agency policies
   and procedures that govern, guide, and regulate oil and gas activities.

   BIA’s Response: BIA partially concurred with this recommendation.
   While BIA stated that the Agency already has some existing internal
   policies and procedures, they did acknowledge that additional
   improvements and updates are needed.

   OIG’s Reply: Based on BIA’s response we consider this recommendation
   resolved but not implemented. We will refer this recommendation to PMB
   to track implementation.

4. Develop and implement internal policies and procedures directing the
   Agency to verify companies’ allowances for royalty calculations, or
   restrict or disallow such allowances.

   BIA’s Response: BIA concurred with this recommendation; however,
   BIA stated that it is premature to develop internal policies and procedures
   regarding verification of royalty allowances because the Department is
   currently considering a proposed rule that may address this
   recommendation.

   OIG’s Reply: Based on BIA’s response we consider this recommendation
   resolved but not implemented pending the results of the negotiated rule
   making. We will refer this recommendation to PMB to track
   implementation.

5. Develop and implement internal policies and procedures for the Agency to
   oversee, identify, and verify non-arm’s-length sales transactions.

   BIA’s Response: BIA concurred with this recommendation; however,
   BIA stated that it is premature to develop internal policies and procedures
   regarding non-arm’s-length sales transactions because the Department is
   currently considering a proposed rule that could address this
   recommendation.

   OIG’s Reply: Based on BIA’s response we consider this recommendation
   resolved but not implemented pending the results of the negotiated rule
   making. We will refer this recommendation to PMB to track
   implementation.



                                                                            33
6. Develop and implement internal policies and procedures to enhance the
   Agency’s drilling permit review process in partnership with BLM.

   BIA’s Response: BIA did not concur with this recommendation due to the
   original language of the recommendation which contained a reference to
   the Handbook. BIA clarified that the Handbook does not apply to the
   Agency. BIA is working, however, with BLM to identify processes and
   procedures that will improve the Agency’s permitting process.

   OIG’s Reply: We consider this recommendation, as amended, resolved
   but not implemented. We agree that working in partnership with BLM will
   allow BIA to use BLM’s technical expertise to improve the permitting
   process. We will refer this recommendation to PMB to track
   implementation.

7. Develop and implement internal policies and procedures to require the
   Agency’s petroleum engineer to review and approve drilling permits.

   BIA’s Response: BIA concurred with this recommendation. The Agency
   has already implemented a policy requiring that all proposed APDs are
   reviewed by the petroleum engineer.

   OIG’s Reply: Based on BIA’s response we consider this recommendation
   resolved and implemented.

8. Make certain that lessees pay oil and gas royalties based on market price
   according to the current regulation, 25 C.F.R. § 226.11.

   BIA’s Response: BIA concurred with this recommendation. The Agency
   has been working on back-audits and reconciliations to ensure that lessees
   are paying oil and gas royalties appropriately. In addition, once BIA has
   an agreement with ONRR in place to account for royalties, the system will
   be further improved.

   OIG’s Reply: Based on BIA’s response we consider this recommendation
   resolved but not implemented. We will refer this recommendation to PMB
   to track implementation.

9. Develop and implement supplemental Agency guidance that includes how
   lessees should measure gas and subsequently calculate royalties based on
   energy quality.

   BIA’s Response: BIA concurred with this recommendation; however,
   BIA stated that it is premature to develop internal policies and procedures
   regarding gas measurement because the Department is currently
   considering a proposed rule that could address this recommendation.



                                                                            34
   OIG’s Reply: Based on BIA’s response we consider this recommendation
   resolved but not implemented pending the results of the negotiated rule
   making. We will refer this recommendation to PMB to track
   implementation.

10. Develop and implement supplemental Agency guidance to 25 C.F.R. part
    226 to help identify and verify companies’ allowances for royalty
    calculations.

   BIA’s Response: BIA concurred with this recommendation; however,
   BIA stated that it is premature to develop internal policies and procedures
   regarding allowances because the Department is currently considering a
   proposed rule that may address this recommendation.

   OIG’s Reply: Based on BIA’s response we consider this recommendation
   resolved but not implemented pending the results of the negotiated rule
   making. We will refer this recommendation to PMB to track
   implementation.

11. Identify all companies that flare gas and verify that each company that
    flares gas has documented approval.

   BIA’s Response: BIA concurred with this recommendation. The Agency
   is reviewing lease files, performing site inspections, and has instituted a
   24-hour public hotline for the public to use to report unapproved flaring,
   environmental concerns, or lease compliance issues. In addition, using
   ONRR’s system to perform auditing and accounting of oil and gas will
   flag any discrepancies in the use of gas.

   OIG’s Reply: Based on BIA’s response we consider this recommendation
   resolved but not implemented. We will refer this recommendation to PMB
   to track implementation.

12. Develop and implement Agency policies and procedures to verify that
    companies properly report volumes on flared gas and pay appropriate
    royalties.

   BIA’s Response: BIA concurred with this recommendation. BIA is
   working closely with ONRR in order to transition Osage’s producing
   leases over to ONRR’s automated reporting and verification system,
   which would address this issue.

   OIG’s Reply: Based on BIA’s response we consider this recommendation
   resolved but not implemented. We will refer this recommendation to PMB
   to track implementation.




                                                                              35
13. Follow existing regulations requiring corporate surety bonds. If the
    proposed regulations allow using CDs, regularly review all escrow CDs to
    verify their maturity and replace matured CDs.

   BIA’s Response: BIA concurred with this recommendation. The Osage
   Agency is now following the current regulations and no longer accepts
   CDs. The Agency sent a memo on September 9, 2014, clarifying that it
   will no longer accept CDs, letters of credit, or cash bonds.

   OIG’s Reply: Based on BIA’s response we consider this recommendation
   resolved and implemented.

14. Develop and implement oversight procedures to ensure compliance with
    the NEPA for all Osage Nation oil and gas activities.

   BIA’s Response: BIA concurred with this recommendation. BIA stated
   that the Agency complies with NEPA with respect to oil and gas activities
   in Osage County and does carry out NEPA review with respect to current
   oil and gas activities. In addition, BIA is taking steps to strengthen
   oversight procedures with respect to environmental issues.

   OIG’s Reply: Based on BIA’s response we consider this recommendation
   resolved but not implemented. We will refer this recommendation to PMB
   to track implementation.

15. Ensure that the Agency has permanent environmental staff to address the
    NEPA requirements.

   BIA’s Response: BIA concurred with this recommendation. In addition to
   historical NEPA compliance, the Agency hired an environmental
   protection specialist December 29, 2013, and is in the process of
   advertising an additional environmental protection specialist. The Office
   of Indian Energy and Economic Development (OIEED) also provided the
   Agency with two environmental contractors.

   OIG’s Reply: Based on BIA’s response we consider this recommendation
   resolved and implemented.

16. Realign emphasis on gauging to other, more effective, oversight activities
    such as inspections, and instead of gauging for production verification,
    only gauge during inspections and for purposes of determining possible
    instances of fraud.

   BIA’s Response: BIA concurred with this recommendation. The Agency
   has engaged with BLM in understanding risk factors for wells and leases
   and will develop a risk-based strategy for the Agency’s inspection and



                                                                            36
   enforcement program. This strategy will deploy inspection and
   enforcement resources that will be considerably more effective.

   OIG’s Reply: Based on BIA’s response we consider this recommendation
   resolved but not implemented. We will refer this recommendation to PMB
   to track implementation.

17. Reevaluate existing gauging practices and develop and implement a more
    efficient and effective gauging program if the Agency continues to
    emphasize gauging. This could include risk-based gauging.

   BIA’s Response: BIA concurred with this recommendation. The Agency
   has hired additional PETs to perform gauging in Osage County. In
   addition, with the assistance of BLM, desktop operating procedures are
   being reviewed and revised to discern best management practices to
   include risk-based gauging.

   OIG’s Reply: Based on BIA’s response we consider this recommendation
   resolved but not implemented. We will refer this recommendation to PMB
   to track implementation.

18. Identify all high-risk leases, develop and implement a risk-based strategy
    to annually inspect all high-risk leases, and include a plan to inspect all
    leases over a specified time.

   BIA’s Response: BIA concurred with this recommendation. The Agency
   is working on a strategy to identify all high-risk leases to ensure annual
   inspections are performed. This will include leases with re-occurring
   environmental issues, violations, spills, and other surface issues. The
   Agency is working in conjunction with BLM to identify the risk factors
   for the wells and leases and will develop a risk-based strategy for the
   inspection and enforcement program that will mirror BLM’s protocol.

   OIG’s Reply: Based on BIA’s response we consider this recommendation
   resolved but not implemented. We will refer this recommendation to PMB
   to track implementation.

19. Upgrade the Agency’s inspection management system to include all leases
    inspected and the risks associated with the leases.

   BIA’s Response: BIA concurred with this recommendation. The Agency
   issued a policy on September 16, 2014, whereby all lease inspections
   performed within Osage County will be encoded into the lease inspection
   tracker. The tracker was modified to include compliance and non-
   compliance lease inspections.




                                                                              37
   OIG’s Reply: Based on BIA’s response we consider this recommendation
   resolved and implemented.

20. Develop and implement guidance to ensure the Agency consistently
    applies and levies fines in a timely manner.

   BIA’s Response: BIA concurred with this recommendation. The Agency
   has implemented a policy to assess penalties and fines associated with
   noncompliance to the lessee after the original notification of violation.

   OIG’s Reply: Based on BIA’s response we consider this recommendation
   resolved and implemented.

21. Develop and implement an Agency action plan to identify and track
    leases that it should terminate for nondevelopment, nonproduction, and
    noncompliance with lease terms.

   BIA’s Response: BIA concurred with this recommendation. The Agency
   recently began generating periodic reports to identify leases that had no
   production for 6 consecutive months. The Agency provides notice to
   producers that have leases on this list. If there is no proof of production
   provided and a site inspection confirms that there is no production, the
   Agency will terminate the lease. With regard to termination of leases for
   noncompliance with lease terms (other than primary term), the Agency is
   developing internal enforcement guidelines and policies that will describe
   circumstances such as "significant noncompliance'' that would warrant
   lease termination.

   OIG’s Reply: Based on BIA’s response we consider this recommendation
   resolved but not implemented pending the development and
   implementation of internal guidelines and policies. We will refer this
   recommendation to PMB for implementation.

22. Develop and implement a strategy for the Agency to identify all wells to
    be plugged and abandoned, develop a prioritized list based on risk, and
    work with the Council to plug high-risk wells.

   BIA’s Response: BIA did not concur with this recommendation. The
   Council currently operates a program to plug certain wells (purging,
   danger to environment or health and public safety). In addition, BIA has
   met with the Oklahoma Environmental Resource Board to help remediate
   abandoned wells. The board will make a presentation at the Osage
   Minerals Forum in September of 2014 outlining its site restoration
   program, and will solicit areas to be remediated.




                                                                               38
   OIG’s Reply: We consider this recommendation unresolved. While we
   acknowledge that the Council operates the program to plug and abandon
   the wells, the Agency provides the Council with the list of wells for
   plugging. Since the Agency’s employees are in the field on a regular basis
   and the Agency develops the plugging instructions, we believe it would be
   best equipped to prioritize the wells. Since the Council only plugs and
   abandons a limited number of wells a year, it is even more important to
   have a prioritized list. As stated in the body of this report, even though
   there may not be a legal or regulatory requirement to do so, plugging and
   abandoning nonproducing wells decreases the risk of damage to the
   environment or injury to people. Therefore, BIA can and should still
   identify and prioritize its abandoned wells. In addition, according to BIA
   and Oklahoma Environmental Resource Board officials, a presentation
   outlining the boards site restoration program was not provided at the
   September 2014 Osage Minerals Forum. We will refer this
   recommendation to PMB for resolution.

23. Work with USGS’s Energy Resources Program to request a mineral
    resource assessment of the Osage Nation’s mineral estate.

   BIA’s Response: BIA concurred with this recommendation. In order to
   meet the intent of the recommendation, the Agency will be working with
   OIEED. Since OIEED has done preliminary work within Osage County
   and is configured to do countywide assessments, BIA stated that OIEED is
   better suited to provide the resource assessment in the shortest possible
   time.

   OIG’s Reply: Based on BIA’s response we consider this recommendation
   resolved but not implemented. We will refer this recommendation to PMB
   to track implementation.

24. Reconcile oil and gas exceptions to independent or third-party sources of
    information, and follow up and resolve any identified differences in a
    timely manner.

   BIA’s Response: BIA concurred with this recommendation. The
   implementation of ONRR’s accounting system will address this
   recommendation. ONRR will address royalty and production reporting,
   data mining, and compliance functions including auditing.

   OIG’s Reply: Based on BIA’s response we consider this recommendation
   resolved but not implemented. We will refer this recommendation to PMB
   to track implementation.

25. Enter into an MOU with ONRR to implement ONRR’s electronic data
    system.



                                                                            39
   BIA’s Response: BIA concurred with this recommendation. BIA and
   ONRR are presently working on an agreement to utilize and implement
   ONRR’s electronic data system, which will include automated production
   and accounting systems and compliance functions.

   OIG’s Reply: Based on BIA’s response we consider this recommendation
   resolved but not implemented. We will refer this recommendation to PMB
   to track implementation.

26. Develop and implement Agency sampling thresholds and follow up on any
    identified discrepancies in a timely manner.

   BIA’s Response: BIA concurred with this recommendation. Once the
   transition to ONRR is complete, ONRR will use its established materiality
   and threshold policies to identify and follow up on discrepancies in a
   timely manner.

   OIG’s Reply: Based on BIA’s response we consider this recommendation
   resolved but not implemented. We will refer this recommendation to PMB
   to track implementation.

27. Reconsider its practice of entering oil lessee reports into the Osage Suite
    system.

   BIA’s Response: While BIA concurred with this recommendation, BIA
   stated that the Agency must continue to utilize the Osage Suite in
   documenting those reports associated with reporting and accounting of
   royalties until such time that ONRR’s accounting system is implemented.

   OIG’s Reply: Based on BIA’s response we consider this recommendation
   resolved but not implemented. We will refer this recommendation to PMB
   to track implementation.

28. Enter into an MOU with ONRR to implement ONRR’s system to address
    the Agency’s database deficiencies.

   BIA’s Response: BIA concurred with this recommendation. BIA and
   ONRR are currently working to establish an agreement to implement
   ONRR's production and accounting systems and related compliance
   functionality.

   OIG’s Reply: Based on BIA’s response we consider this recommendation
   resolved but not implemented. We will refer this recommendation to PMB
   to track implementation.




                                                                              40
29. Enter into an MOU with ONRR to conduct compliance reviews, audits,
    and data mining for royalty compliance and verification.

   BIA’s Response: BIA concurred with this recommendation. As part of the
   transition to production and accounting with ONRR, the agreement will
   include the compliance function such as up-front editing of reporting data,
   data mining, compliance reviews, and audits.

   OIG’s Reply: Based on BIA’s response we consider this recommendation
   resolved but not implemented. We will refer this recommendation to PMB
   to track implementation.

30. Work with the Division of Energy and Minerals Development to
    implement the NIOGEMS program for electronic lease file management,
    and Agency lease and well mapping.

   BIA’s Response: BIA concurred with this recommendation. The Agency
   has been working with OIEED, and OIEED is readying NIOGEMS for
   implementation at the Agency.

   OIG’s Reply: Based on BIA’s response we consider this recommendation
   resolved but not implemented. We will refer this recommendation to PMB
   to track implementation.

31. Develop and implement a records management program for Agency lease
    files to comply with the IARMM to include using the NIOGEMS program
    for electronic lease file management.

   BIA’s Response: BIA concurred with this recommendation. The Agency
   has been working with OIEED, and OIEED is readying NIOGEMS for
   implementation at the Agency.

   OIG’s Reply: Based on BIA’s response we consider this recommendation
   resolved but not implemented. We will refer this recommendation to PMB
   to track implementation.

32. Work with the Office of Indian Energy and Economic Development to
    implement the NIOGEMS program for the Agency’s tract management.

   BIA’s Response: BIA concurred with this recommendation. BIA has been
   working with OIEED, and OIEED is readying NIOGEMS for
   implementation at the Agency.

   OIG’s Reply: Based on BIA’s response we consider this recommendation
   resolved but not implemented. We will refer this recommendation to PMB
   to track implementation.



                                                                           41
33. Automate its lease acreage data to ensure accurate information is
    available to the Agency and Council.

   BIA’s Response: BIA concurred with this recommendation. The Agency
   will ensure all mineral leases are encoded into Trust Asset and Accounting
   Management System (TAAMS) and the information is up to date and
   correct. This will include the first and last production date of all producing
   or nonproducing wells. The system will then be capable of producing a
   report of available acreage. In addition, an Osage-specific TAAMS
   module is being prepared for the Agency that will address some of the
   unique needs associated with the mineral estate.

   OIG’s Reply: Based on BIA’s response we consider this recommendation
   resolved but not implemented. We will refer this recommendation to PMB
   to track implementation.




                                                                              42
Appendix 1: Scope and Methodology
Scope
We evaluated the Bureau of Indian Affairs’ (BIA) Osage Agency’s (Agency)
management of oil and gas activities on Osage Nation lands after learning of
deficiencies in the Agency’s management of the Osage Nation’s oil and gas
mineral estate from our Energy Investigations Unit. The Unit investigated alleged
theft of natural gas from the estate. In addition, newspaper articles and emails
provided to us from interested parties that have leases on the estate also alleged
mismanagement. We specifically focused on preleasing, leasing, exploration,
production, postproduction, financial accounting, and information technology.

Methodology
We conducted this review from May 2013 through December 2013. During our
review, we—

   •   reviewed relevant laws, regulations, policies, and procedures related to the
       Agency’s oil and gas management program;
   •   examined prior reviews;
   •   analyzed program data;
   •   observed processes and reviewed documents;
   •   evaluated program processes, including preleasing, leasing, exploration,
       production, postproduction, financial, and information technology;
   •   examined internal controls;
   •   reviewed position descriptions;
   •   reviewed high-level data relating to oil and gas operations on Osage
       Nation lands; and
   •   obtained our Office of General Council’s opinion on legal questions.

We also interviewed—

   •   Agency staff;
   •   U.S. Department of the Interior and BIA Eastern Oklahoma Region staff;
   •   Osage Tribal Council members and other stakeholders with an interest in
       oil and gas opportunities in Osage County, OK;
   •   Bureau of Land Management officials;
   •   Office of Natural Resources Revenue officials;
   •   Office of Information Operations officials; and
   •   Office of the Solicitor officials.

We visited or contacted the—

   •   BIA Eastern Oklahoma Regional Office, Muskogee, OK;
   •   BIA Osage Agency Office, Pawhuska, OK;


                                                                                43
   •   BIA Headquarters, Washington, DC;
   •   BIA Office of Indian Energy and Economic Development, Lakewood,
       CO;
   •   BIA Office of Information Operations, Albuquerque, NM;
   •   Bureau of Land Management officials; Lakewood, CO, and Washington,
       DC;
   •   U.S. Department of the Interior, Office of the Solicitor, Washington, DC;
   •   Office of Natural Resources Revenue officials in Lakewood, CO, and
       Houston, TX; and
   •   Oklahoma Corporate Commission, Oil and Gas Conservative Division,
       Oklahoma City, OK.

The high monetary impact of oil and gas operations on Indian lands creates the
potential for fraud and other illegal acts. In addition to this review, our Office of
Investigations received a number of complaints regarding the Agency’s
management of oil and gas resources. Accordingly, we coordinated our activities
and field visits with the Office of Investigations.

We conducted this evaluation in accordance with the Quality Standards for
Inspection and Evaluation as put forth by the Council of the Inspectors General on
Integrity and Efficiency. We believe that the work performed provides a
reasonable basis for our conclusions and recommendations.




                                                                                   44
Appendix 2: A History of the Osage
Nation and its Mineral Rights
The Osage Nation is a federally recognized tribe in the United States. Its tribal
headquarters and most of its members are located on the Osage Reservation in
Pawhuska, OK. By treaty in 1808, the Osage people ceded 52,480,000 acres of
land in Arkansas and Missouri to the U.S. Government. In 1825, the Government
forced the Osage people to move to an area along the southeast Kansas border. An
Act of Congress on July 15, 1870, required that the remainder of the Osage lands
in Kansas be sold, and the Tribe was relocated to Indian Territory in the Cherokee
Outlet (now the Osage Reservation in Pawhuska, OK). The Osage people
received $7 million, which enabled them to purchase 1.4 million acres from the
Cherokee Nation. The Osage Nation therefore became the only American Indian
tribe to buy its own reservation.

Oil leasing on Osage Nation lands began as early as March 16, 1896, when the
Secretary of the Interior granted a blanket lease to a private individual to produce
oil in the entire Osage Reservation for 10 years. In 1905, there were 687,000 acres
of the Osage Reservation under the control of sub-lessees, and $2.69 million were
disbursed in connection with the blanket lease. The rise in production over the
next 10 years prompted Congress to pass the Osage Tribe Allotment Act (Act) on
June 28, 1906.

The Act reserved the Osage mineral estate of the Osage Reservation to the Osage
Nation and directed that the Osage Nation’s headright holders receive the royalty
revenues. Because of the Act, the Osage Nation operates under its own
regulations (25 C.F.R. part 226, “Leasing of Osage Reservations Lands for Oil
and Gas Mining”).

A settlement agreement in 2011 between the U.S. Department of the Interior
(DOI) and the Osage Nation required DOI to update 25 C.F.R. part 226 through
negotiated rulemaking. DOI agreed to negotiated rulemaking with the Osage
Nation to address means of improving the trust management of the Osage mineral
estate, the Osage Tribal Trust Account, and other Osage Nation accounts. Federal
Register, Volume 78, No. 167, issued on August 28, 2013, identified the proposed
rule changes. DOI solicited comments on the proposed changes, and the comment
period closed November 18, 2013. DOI is still reviewing the comments.




                                                                                 45
Appendix 3: Schedule of Monetary
Impact

                    Issue                     Questioned Costs
Potential lost royalties:
   Royalties lost from selling gas for less       $47,000
   than market price

   Uncollected royalties from flaring gas         $50,000


Potential lost revenue from fines                 $49,200




                                                                 46
Appendix 4: The Bureau of Indian
Affairs’ Response to the Draft Report
The Bureau of Indian Affairs’ response to our draft report follows on page 48.




                                                                                 47
                       United States Department of the Interior
                                     BUREAU OF l DIAN AFFAIRS
                                        Washington, DC 20240

IN REPLY REFER TO
                                               SEP 2 6 2014



Memorandum

To:                 Kimberly Elmore
                    Assistant Inspector Gene

From:


Subject:            Report No. CR-EV-BIA-0002-2013 - Management of the Osage Nation's Energy
                    Resources

Indian Affairs appreciates the opportunity to comment on the Office of Inspector General (OIG)
Evaluation Report on the Management of the Osage Nation ' s Energy Resources (Report).

Following the recent settlement with the Osage Nation regarding management of their mineral
estate, the Department initiated a Negotiated Rule Making to address the regulations at 25 C.F.R.
226 to improve the Bureau of Indian Affairs (BTA) and specifically the Osage Agency' s (Osage
Agency or Agency), ability to fulfill our duties in management of the estate, and address many of
the issues and concerns identified in your report. In addition the Director, BIA, has been
conducting bi-annual consultations with the Osage Minerals Council in order to identify issues as
well as brief the Council on actions being taken witrun the BJA to address identified shortfalls.
Tills has included, but is not limited to, development of a business plan to assist in identification
of staffing shortfalls witrun the Oil &Gas (O&G) section of the Osage Agency; development of
an environmental "best practices" document in collaboration with the Environmental Protection
Agency (EPA), wruch has included listening sessions to hear from stakeholders; implementation
of a complaint tracking system, and training of inspectors thru the Bureau of Land Management
(BLM) PET training program.

Most, if not all of the recommendations, within this evaluation have been identified and are in
some state of solution implementation. Many of these issues were being addressed during the
time the evaluators were conducting their ev Juation, and although it is mentioned in some are s
of the report, I don t believe that many of these efforts are recognized as being in some stage of
implementation prior to issuance of the report

Specific areas within the report narrative that we have comments on are outlined below:

Page 5, Paragraph 4: We found that the general mind-ser of the Agency is that it cannot effect
change in the Osage oil and gas program because it is bound by the 1906 Act and 25 C.F.R. Part
226, which exclude the Osage Nation from other indian oil and gas regulations.




                                                                                                  48
Although the Osage Nation i expressly excluded from other oil and gas Jaws and regulations,
the Agency does believe it has the authority to institut reform and has been doing so over the
last two years. The Agency has been developing new policies and procedures to strengthen
management and administration, including for example, putting field workers through BLM PET
training, adding staff resources, undertaking a negotiated rulemaking to improve management
and administration of the mi nerals estate, and working with EPA on an environmental
compliance handbook (currently pending with the agencies po t a erie of public listening
sessions).

Page 5, Paragraph 4: In order to correct defi iencies, however, BIA will need to make
significant changes to the program.

The Agency has been making significant changes in the program, as outlined above and in other
comm nts, including for example, the development of a business plan to identify and address
staffmg needs and training.

Page 5, Paragraph 5: The Agency has not corrected these deficiencies. As such. it still
struggles with vague regulations, insufficient policies and procedures, an antiquated data
system. and inadequate capabilities in oil and ~as management.

BIA is working on updating and expanding the rust A set and Accounting Management System
(TAAMS) for lease tracking and is working on finalizing he mechani m to have Office of
  atural Resources R venue (ONRR) perform a counting and auditing. In addition th . Agency
has b en working over the last couple years on back audits to ensure royalty collection and
compliance, has str ngth ned its lease compliance by adding a 24-hour hotline and tracking
system to manage lease compliance issues and has been sending staff to trainings on various
topics.

Page 6, Paragraph 1: Nothing prohibit BIA .fi'om delegating responsibilitie ·for many of the
0 ·age Agency 'sfun ·tions by using interagency memoranda ofunderstanding MO s) with BLM
and ONRR.for those agencie to use their expertise and perform specialized work while leaving
uLtimate responsibility and accountability with BIA.

The tatutes and regulations governing BLM and 0 RR specifically exclude Osage. With
respect to BLM, the statutory :rarnework does not apply to 0 age County and while BIA can
borrow from the regulations that BLM utilize , it must do o within the context of the 1906 Act
and the regulations found at 25 C.F.R. Part 226. During the Negotiated Rulemaking the
Committee looked and has propo ed that the BIA incorporate certain BLM standards and
procedures in a Final Rule. Additionally the BIA is currently workin with ONRR and the
Solicitor· Office to figure out how to partner with ONRR to utilize ONRR' s ystem for
accounting and auditing of royalty.

Page 7, Paragraph 4: Processing and TransportaNon Allowan es.

The Agency ha been aware of this i sue and it was addressed by the Negotiated Rul making
Committee. Proposed regulations 25 .F.R. §§ 226.18 and 226.20 address and define the royalty




                                                                                           49
rate calculation for oil and gas. Oil must be valued. for royalty calculation purpose, using the
higher of the average NYMEX daily price of oil at ushing, OK for the month in which oil was
sold adjusted for gravity; or the actual selling price as adjusted for gravity. The proposed
regulations do not allow for an oil transportation aJlowance, and gas must be valued, for royaJty
calculation purposes, using the sold volumes. heating value and the ONRR Index Zone price
published monthly. The proposed regulations then eta limit on gas processing allowance NTE
50 percent and further defines the allowable/non-allowable transportation and processing costs.
In addition the proposed regulations, if approved would be incorporated into the standard leasing
documents. This would allow the Agency to apply a verified methodology for accepting or
disallowinc:r said allowances, when permissible.

Page 7, Paragraph 5: The Agency may not be collecting the full royalNes due on non-arm 's-
length ga sales. which ar sales between affiliated parli s that may have the same economic
intere ts.

Tius section is not entirely accurate in that the current royaJty paid is based on the lughest posted
price of oil by a major purchaser within Osage County. The Agency has been aware that there
has b en a concern related to non-arm·s length transactions and the ability of a company to
manipulate the price of oil within Osage CoWJty thereby impacting royalty. However, the
Agency also recognized changes to its regulations would b required to remedy these concerns.
As such, the negotiated rulemaking committee undertook an evaluation of royalty and has
proposed to u e NYMEX at Cushing, which is a more widespread market indicator and less
susceptible to manipulations, on which to base royal for oil. The Proposed Rule also propo es
to use the ONRR method for calculating gas royalties. As noted above, BIA is also working
towards utilizing ONRR to p rfonn all auditing and accountin~:o functions and once that system is
in place it will also help to r duce this concern.

Page 8, Paragraph 2: BlA r quirements are in the Fluid Mh1eral Estate Procedural Handbook:
however, the Agency doe not .follow the Handbook.

The BLM Fluid MineraJs Handbook is tailored to specific statutory and regulatory requirements
that are not appl icabl or workable in Osage ounty.

Page 9, Paragraph 2: We also noted that an Agency petroleum engineering technician (PET)
review and approves drilling permits rather than the Agency's petroleum engineer.

The Agency had previously identified this as an area for improvem nt and has already developed
and implemented internal policie and procedures for the petroleum engineer to review and
approve applications for permits to drill.

Page 9, Paragraph 4: Lessees underpay gas royalties because they are elling aas at less than
market price. According to 25 CFR. · 226.11. royalties must be based on market price. The
Agency. however. is not enforcing the regulations:




                                                                                                  50
This is not entirely accurate. The Agency had previously identified this as an issue as a result f
the Tribal Trust Settl rnent. The Agency has been undertaking past reconciliations but is still
working on bringing tho e audits/reconciliations current, including reconciliations for 2013.

Page 10, Paragraph 4&5: Gas Measurement

This section is incomplete in that it fail to recognize that gas m asurement is an area that the
Agency has known it needs improvement and is one of the issues that the Agency agreed to
w1dertake in the negotiated rul making (as a result of the Tribal Trust Settlement). The Agency
cannot make uni lateral changes to requirements for gas measurement without a rulemaking. The
Proposed Rut addresses this issue by requiring operators comply with BLM On-Shore Oil and
Gas Order 5, which provides specific standards for gas measurement.

Page 12, paragraph 1: The Agency does not sufficiently /rack gas flaring

This ection is incomplete in that the Agency has been working on this is ue and it was rai ed
during the negotiated rulemaking. The negotiated ruJemaking committee discus ed that better
requirement for measurement of ga would increase accountability here, which was one reason
why it proposed that the Department adopt BLM On- hare Oil and Ga Order 5.

Page 13, paragraph 1: The Agency allmvs bank certificates of deposit (CDs) as bonding
instruments. but current regulations do not.

The Agency has corrected this issue in a policy dat d S ptember 9, 2014. which makes clear that
the Osage Agency i no longer accepting certificates of deposit (COs)

Page(S) 14 & 15: Agency is not in Cornplian e with Environmental Lmv; Agency does not
comply with the National Environmental Policy Act.

S e Appendix "A' from the Solicitor's Office.

Page 15, paragraph 4: The Agency has a critical need for permanent environmental staff

This information is not up to date. In December of 2013 th Agency hired an environmental
prot ction pecialist. The Osage Agency bas also be n working w ith the Indian Energy and
Economic Development Office OIEED) to secure two environmental contractors for Osage. s
a result of staffing plan that were approved by main headquarters in the past year, the Ag ncy is
al o in the process advertisin for a second En ironm ntaJ Protection Speciali t. Th Deputy
Superin endent for th Osage Ag ncy that was recently brought on board al o has an
environmental background and carne from th      P A.

Page 21, paragraph 2: We found that the Agency does not alvt ays terminate lease. f or
nondevelopment. nonproduction, or noncompliance vrith lease terms.

With respect to non-development, th 0 age Agency has been aking th st ps to util ize T AAMS
to gen rate reports of leases with expiring primary t rms, and once the system is fully functional,




                                                                                                 51
the Agency will take appropriate actions to tenninate those leases.              With regard to
nonproduction. the Osage Agency recently began generating periodic reports from the Osage
Suite to identify leases that had no production for six (6) consecutive months. Notice is provided
to producers with leases on this list. If there is no proof of production provided and a site
inspection confirm that there is no production, the lease will be tenninated. This responsibility
has been identified for the Branch of Enforcement and Compliance. With regard to termination
of leases for noncompliance with leas term (oth r than primary term), the Osage Agency is
developing internal enforcement guidelines and policies that will describe circumstances such as
''significant noncompliance" that would warrant lea e termination. Significant noncompliance
(SNC) would likely include consideration of repeated instances of seriou lease deficiencies that
are not corrected and risk of harm to people or the envirorunent.

Page 29, paragraph 2: A more efficient process would be to use an electronic format for data
management. For example. DOl's Division of Energy and Mineral · Development developed the
National indian Oil & Gas Evaluation & Mana ement System (NJOGEMS) software application
to assist energy- and mineral-producing Indian tribes in managing their energy and mineral
resources. The application provides access to well location ·, production, lease, agreement, and
other natural resource data on Indian lands. The Divi. ion provides the software, data. training.
and learning upport at no cost to a requesting tribe and to Federal Gol ernrnent.

The BIA is and has been workino with OIEED to in tall IOGEM at Osage Agency. OIEED
will be moving forward with implem ntation of NIOGEMS across Indian Affairs. including at
the Osage Agen y.

EvALUATION RECOMMENDATIONS:
indian Affairs provides the fo llowing response to the report's recommendations.

Recommendation No. 1

Use its authority to correct program dej?ciencies by modifYing 25 C.F.R. Part 226 to mirror
other Indian Count1y oil and gas regulations.
Response:

Indian Affairs Non-Concurs with Recommendation No. 1.

The Osage Nation is expressly exempted from oil and gas statute governing other Indian lands.
However, as a result of th    ribal Tru t Settlem nt and in recognition of the need for improved
management and admini tration of the Osage min rats estate, the BlA has completed the
negotiated m lemaking to revis 25 C .F.R. Part 226 with the Osage Minerals Council and other
interested parties. Durinrr this proce s the members of the 0 age Minerals Council and other
interested parties voiced concerns regarding making Osage mirror other Indian Country oil and
gas r gulations and the Negotiated Rule Making Committ e tried to balanc these concerns with
the need to improve the current regulatio . The Proposed Rule does include some r gulations
that would minor BLM and 0 RR regulations r garding oil and ga management and
administration. For exan1ple proposed section 226.18 (b) (1) wiJI adopt NYMEX pricing for the
royalty rate of oil and proposed section 226.63 adopts the standards set forth BLM's On- hore
Oil and Ga Order 5. The Proposed Rule was published in F deral Register on August 28, 20 13



                                                                                               52
for public comment. Now that the public comment period has ended the Proposed Rule            IS
currently under Departmental review.

 ee attachment 1 (Proposed RuJe 25 C.F.R. Part 226)

Responsible Party:    Assistant Secretary, Indian AiTairs
Target Date:          See attachment I

Recommendation No.2

Enter into MOUs with BLM and 0 RR so the ·e agencies can perfonn essential oil and gas
operations and accounting activities on B!A 's behalf

Response:

Indian Affairs concurs in part with this recommendation.      BIA wi ll be entering into an
agreem nt with ONRR to perform the accounting activities on BIA's behalf.

The use of BLM under a MOU was extensi ely discussed within theN gotiated Rule Making
Committee, which consisted of representatives from BLM, BIA, ONRR and the Osage Minerals
Council. It was determined that du to the unique statutory an regulatory lan!!Uage that the
Osage mineral estate operates under, that an MO with BLM was not the be t or most efficient
avenue to pursue. While it is true that BLM currently performs oi l and gas functions on Federal
and Indian lands within Oklahoma, Texas and Kansas, we do not believe that BLM is staffed to
handle the additional responsibi lities of Osage County. Indian Affairs has provided additional
funding to the Osage Agency for 4 FTE Petroleum Engine ring Technicians for a total of 13
PETs for the agency. To ensure that the Osage Agency Petroleum ngineering Techrllcians
(PETS) are properly trained, 4 P T have completed the BLM Certification Course and the
remaining 7 are scheduled to complete the certification course in FY15/16. In addition BLM
has committed to providing field inspection training for the Osag Agency PETs on properties
within Osage ounty.

The Director of the Bureau of Indian aiTairs has been working in conjunction with ONNR to
implement their accounting and reporting unction for Indian Mineral at the Osage A0 en y.
ONNR present d a proposal to the Director, Bureau of Indian Affairs on ept mber 22, 2014
that will outlin the multiyear phase in of implementation. timeline and associated cost.

Responsible Party:   Director, Bureau of Indian Affairs
Targ t Date:         The implementation to ONRR will be a multi-year pba ed approach d
                     b ginning January 1, 2015 and scheduled for final completion of all
                     aspects of the ystem on December 31, 20 17.

Recommendation No. 3

Develop and implement ojjicial. comprehensive internal agency policies and procedures that
govern. guide, and regulate oil and gas activities.




                                                                                             53
Re ponse:

Indian Affairs Concurs in part with Recomm ndation No. 3

The Osag Agency has existing internal agency policies and procedures that govern, guide and
regulate oil and gas activities. However, there are improv ments and updates that can be made
to some of the internal policies and procedures. In the past, the Agency has been constrained by
funding and resources, but in the Ia t two years, the Agency' s budget has been increased to
provide additional funding to improve internal systems that will result in overall improvements
to the management of the Osage mineral estate and lead to increased accountability within the
Agency. For an example the Osage Agency requested and has been granted the assi tance of the
OIEED to a sist in the review of the present desktop operating procedures for Lease
Management, ubsurface, Lease Compliance, and Environmental Protection. An industry
contractor has been hired and tasked full time by OIEED to review the current operating
procedures and in conjunction with Agency taff develop up to date manuals and procedures for
Agency operation

Responsible Party:    Superint ndent, Osage Agency
Target Date:          December 31 , 2015

Recommendation No.4

Develop and implement internal policies and procedures directing the agency to ver(fY
companies' allowance for royalty calculations or restrict or disalf01,r su h allowances.

Response:

Indian Affair Concur with Recommendation No. 4

While the Osage Agency concurs in this recommendation, it is premature to develop internal
policies and procedures regardi ng verification of royalty allowances at this time. The
Department i currently con idering a Propo ed Rule that may address this recommendation.
Proposed regulations 25 .F.R. §§ 226.18 and 226.20 addre ses and defines the royalty rate
calculation for oil and gas. Oil must be valued, for royalty calculation purpose using the higher
of the average NYM X daily price of oil at Cushing, OK for the month in which oil was sold
adjusted for gravity; or the actual selling price as adju ted for gravity. The Proposed Rule do s
not allow for an oil transportation allowance. With respect to gas, nder the Proposed Rule, gas
must be valued for royalty calculation purpose using the sold volumes, heatine values and the
ONRR Index Zone price published monthly. The Proposed Rule al o sets a limit on gas
processing allowance NTE 50 p rcen and further define the allowable/non-allowable
transportation and proce sing costs. In addition the Proposed Rul , if approved would be
incorporated into the tandard leasing documents. This would allow the Agency to apply a
verified methodology for accepting or disallowing said allowances, if permissible. The Proposed
Rule is still being considered by the Department and could be modified ba ed on public
comment.




                                                                                              54
Responsible Party:    Director, Bureau oflndian Affairs
Target Date:          December 31,2015

Recommendation No. 5

Develop and implement internal policies and procedures for the agency 10 oversee, identify, and
verify non-arms · length sale transactions.

Response:

Indian Affairs Concurs with Recommendation No. 5

While th Osage Agency concurs in thi recommendation, it is premature to develop internal
policies and procedures regarding non-am1's length transactions at this time. The Department is
currently considering a Proposed Rule that may address tlus recommendation. Proposed
regulation 25 C.F.R. § 226.18 (b) (1) establi hes NYMEX daily pricing at Cushing Oklahoma for
the price of a barrel of oil. This is different than the current regulation that uses the Highe t
Posted Price method of valuation. The Highest Po ted Price is subject to manipulation through
non-arms' length tran action . If proposed regulation section 226.18 is adopted by the
Department the use of NYMEX as an independent third party floor price benchmark will reduce
the opportunity for price manipulation by estab li hing the minimum price independent of tbe
payor. The ONRR calculated index zone price that is contemplated by the Proposed Rule will
also provide the same protection for natural gas. Additionally the ONRR Audit and Compliance
process that will be implemented, expr ssly review and compares payor reported prices against
actual rec ipts. Besides calculating and ordering payment for underpaid royalties, the ONRR
system automatically flags penalties for payor who w1der report. The e practices eliminates any
advantage to non-arms· length transactions remove th n ed to evaluate transaction affiliations
and discourages under reporting.

Responsible Party:    Director, Bureau of Indian A fairs
Target Date:          The implementation to ONRR will be multi-year pha ·ed approached
                      beginning January 1, 2015 and scheduled for final completion of all
                      aspects of the ystem on December 3 1, 2017.

Recommendation No. 6

Develop and implement internal policies and procedures to enhance the agency's drilling permit
(APD) review proces by.following BIA 's Fluid Mineral Estate Procedural Handbook.

Response:

Indian Affairs Non-Concur to Recommendation       o. 6

The BIA Fluid Mineral E tate Procedural 1 andbook contemplates the use of a tripartite system
of minerals management, which includ s BIA, BLM and ONRR. As noted above, the statutes
and regulations that govern the use of BLM and     RR d not currently extend to the Osage




                                                                                              55
mineral estate. Within the framework of he Handbook, BLM issues tl e APD' s and the
Handbook guidelines outline this process. The process, procedures and requirement (such as
the Surface Use of Operations plan) are authorized primarily under Onshor Orders 1&2 which
are not applicable under Federal Law for the 0 age Mineral E tate (43 C.F.R. · 3164 specifically
exempts Osage Oil and Gas Lea es from Onshore Orders, in addition the Federal Oil and Gas
Royalty Manag ment Act (FOGRMA) 30 . .C. § 1702 (3) provid s that such term does not
apply to any lands subject to the provision of ection 3 of th Act of June 28, 1906 (34 Stat.
539). While it is true th Handbook states that the "Osage conducts all activities normally the
responsibility of BLM" the Osage Agency must work within the framework of 25 C.F.R. Part
226 and not those of On-Shore Orders which govern the regulatory authority and process of
BLM.

The Eastern Oklahoma Regional Office and the sage Agency are currently working with local
BLM staff at the Tulsa Field Office with regards to the APD process in order to identify
processes and procedures that will improve the permitting process at the Osage Agency within
current regulatory authority.

Responsible Party:   Superintendent, Osage Agency
Target Date:          ee attachment 2

Recommendation No. 7

Develop and implement internal policies and pro ·edures to require the agency's petroleum
engineer to review and approve drilling permits.

Response:

Indian Affair Concurs with Recommendation No. 7

The Osage Agency has already implemented a policy r quiring that all proposed applications for
permits to drill are reviewed by the Petroleum Engineer. BlA consider this recommendation to
be implemented (See attachment 3)

R sponsible Party:   Sup rintendent, Osage Agency
Target Date:         September 9, 2014 ( ee attachm nt 3)

Recommendation No. 8

Make certain that le sees pay oil and ga royalties based on rnarket price according to the
current regulations 25 CF.R. 226.11.

Response:

Indian A±Tairs Concurs with Recommendation     o. 8




                                                                                             56
The Osage Agency previously identified this issue as an area of concern as a result of the 0 age
Tribal Trust ettlement and ha been working on back audits/reconciliations to ensure that
lessees are paying oil and gas royalties in accordance with 25 C.F.R. § 226.11. Once the BlA
has an agreement with ONRR in place to perform royalty accounting functions. the system will
be further improved.

Responsible Party:    Director. Bureau of Indian Affair .
 arget Date:          The implementation to ONRR will be a multi-year phased approached
                      beginninc1 January L 2015 and scheduled for final completion of all
                      a pects ofthe sy tern on December 31,2017.

Recommendation No. 9

Develop and implement supplemental agency guidance that includes hO'w les 'ees should mea ure
gas and subsequent! calculate royalties on energy quality.

Response:

Indian Affair Concurs with Recommendation No.9

While the BIA concurs in tllis recommendation. it i premature to develop internal policies and
procedures regarding gas measurements at this time. The Department is currently considering a
Proposed Rule that wou ld address this recommendation. Th proposed regulation 25 C.F.R.
§226.63 (a), (b) establishe that gas will be measured in accordance with the standards,
procedures, and practices set forth in BLM On-Shore il and Gas Order 5 (measurement of Gas,
and any amendments thereto).

Responsible Party:    Director, Bureau of Indian Affairs
Target Date:          December 3 I, 2015

Recommendation No. 10

Develop and implement supplemental agency guidance to 25 CF.R. Part 226 to help identifY
and ver{fy companies' allowances.for royalty calculations.

Response:

Indian Affairs Concurs with Recommendation No. 10

While the Osage Agency concurs in th·s recommendation it is premature to develop internal
policies and procedures regarding identifying and verifying companies' allowances for royalty
calculations at this time. The D partrnent is currently con idering a Proposed Rule that may
address this recommendation. The propos d regulation 25 C.F.R.           226. 18 cle rly defin s
royalty rate allowances. In addition, BIA is working closely with ONRR in order to transition
Osage producing lea es over to th ONRR automated reporting and verification system, whi h
would address this is ue regardless of whether the Proposed Rule is adopt d.




                                                                                              57
Responsibl Party:     Director, Bureau of Indian Affair
Target Date:          The implementation to ONRR will be a multi-year phased approached
                      beginning January 1, 2015 and scheduled for final completion of all
                      aspect ofthe y tern on December 31.2017.

Recommendation No. 11

ldent(fy all companies that flare gas and ver{fy that each company that flares gas has
documented approval.

Response:

Indian Affairs Concurs with Recommendation No. 11

The Osage Agency currently stri es to ensure all flaring of gas is documented and approved. As
a result of the recent negotiated rule making thi is ue was pr viously raised with the Osage
Agency and he Agency continues to review lease files perform site inspections and has
instituted a 24-hour public hotline for the public to u e to report unapproved flaring,
environmental concerns or lease compliance is ues. The Osage Ag ncy ha created a tracking
system for the hotline to ensure all call are investigated and fo llowed up on in a timely manner.
In addition utilizing ONRR s sy tern to perform auditing and accounting of oil and gas will flag
any discrepancies in the u c of gas. This concern will be further addressed if the proposed rule is
adopted and operators are required to comply with B M On-Shore Oil and Gas Order 5 with
respect to the measurement of gas, as the new m tering requirements wi ll provide another check
to identify discrepancies. In performing in pections of lease , the PETs report any Haring of
gas. and letters are issued to the le ee and placed in the lease file. The Osage Agency is
unaware of any unauthorized flaring of a at this time.

R sponsible Party:    Superintendent Osage Agency
Target Date:          December 31 , 2015

Recommendation No. 12

Develop and implement agency policie and procedllres to ver(fy that companies properly report
volumes on flared gas and pay appropriate royalties.

Response:

Indian Affairs Concurs with Recommendation No. 12

While the Osage Agency concurs with the recommendation, it has already identified this concern
and believes it is premature to address thi r commendation. Th Bureau is working clo ely with
ONRR in order to transition 0 age producing l ases o er to the ONRR aut mated reporting and
verifi ation system, which would address this i sue. This concern will be further addressed if the
Propos d Rule is adopted and operators are required to comply with BLM On-Shore Oil and Ga




                                                                                                58
Order 5 with respect to the measurement of gas, as the new metering requirements will provide
another check to identify discr pancies.

Responsible Party:    Superintendent, Osage Agency
Target Date:          The implementation to ONRR will be a multi-. ear pha ed approached
                      beginning January 1, 2015 and scheduled for final completion of all
                      aspects of the system on Decemb r 31, 2017.

Recommendation No. 13

Follow existing regulations requiring co1porate urety bonds. If the proposed regulations allow
using CDs, regularly review all escrow CDs to verify their maturity and replace matured CDs.

Response:

Indian Affairs Concurs with Recommendation     o. 13

The Osage Agency is following the current regulations and no longer accepts Certificates of
Deposits (CDs). Osage Agency is only accepting bonds as identified in 25 C.F.R. ~ 226.6. The
Agency has a listing of all CDs that have been accepted in the past, and in addition during
approval of assignments of these lea es, th y are ensuring that CDs are replaced with acceptable
bonds. The propo ed regulation are not final and are till being reviewed by th Department. If
the Proposed Rule becomes final and allow for CD . at that time the Osage Agency can consider
the need for a process to review CDs and verify their maturity.               We consider this
recommendation to be implemented (see attachment 4)

Responsible Party:     uperintendent. Osage gency
Target Date:           eptember 9, 2014 (see attachment 4)

Recommendation No. 14

Develop and implement oversight procedures to ensure compliance with NEPA for all Osage
Nation oil and gas activities.

Response:

Indian Affairs Concurs with Recommendation No. 14

The Osage Agen y complies with NEPA with re pect to oil and gas activities in Osage County
and does carry out NEPA review with respect to current oil and gas activities. In addition, BIA
is taking steps to strengthen oversight procedures with respect to environmental issues.
Moreover, to further improve this process, in November 2012, the Eastern Oklal1oma Regional
Office, BlA. and Osage Agency, BIA began work with BLM to include BIA oil and gas
operations, see 25 C.F.R. Part 226 on th Osage Mineral Reservation in the BLM's Kansas
Oklahoma, and Texa Re ource Management Plan and National nvironmental Policy Act, 42
  .S.C. §§ 4321-4370[ (NEPA) compliance effort. Coordinating with the BLM with re pect to




                                                                                             59
BIA Osage oil and gas operations was determined appropriate in order to supersede and replace
the 1979 Environmental Asses ment. Public coping for this effort was completed on January
31 2014. The Environmental Assessment for Osage oil and gas activities will be completed in
May 2015. If determined necessary, an Environmental Impact tatement will be completed by
the end of December 2015. While the BLM and BIA NEPA work is on-going. the BIA on July
15, 2014, issued a Notice to all Mineral Lessees that in the interim (begilll1ing August 12, 2014)
Lessees would be required to prepare a draft site-specific Environmental Assessment for BIA
approval to accompany all Applications for Permit to Drill. The Osage Agency Environmental
Protection pecialist will review the Environmental Assessment EA) to ensure that a Finding of
No Significant Impact (FONSI) can be signed by the uperintendent before the commencement
of oil and gas activities with Osage County.

Re ponsible Party:     uperintendent, Osage Agency
Target Date:          December 31. 2015 ( ee attachment 5)

Recommendation No. 15

Ensure that the Agency ha permanent environmental Lajfto address the NEPA requirements.

Response:

Indian Affairs Concurs with Recommendation No. 15

In addition to historical NEPA compliance the Osage Agency has hired an Environmental
Protection Specialist as of December 29,2013, and is in the process of advertising an additional
Environmental Protection Specialist. The OI ~ED also provided the Osage Agency with two
environmental contractors. BIA considers this recommendation implemented.

Responsible Party:    Superintendent, Osage Agency
Target Date:          December 2013

Recommendation No. 16

Realign empha is on gauging to other, mor effective, oversight activities such as inspections,
and instead ofgauging for production ver[fication, only gauge during inspection and.for p urpose
ofdetermining possible in lances o.ffraud.

Response:

Indian Affairs Concurs with Recommendation No. 16

Tank gauging is one portion of an effective Inspection and Enforcement (I&E) program. To
r strict tank gauging to those activities associated with insp ctions and po sible in tances of
fraud would compromise the ability of the     age Agency to implement an effective production
verification and production accountability program. The Agency has engaged with the BLM in
und rstanding ri k factor for wells/lea es and will develop a risk ba ed strategy for the I&E




                                                                                               60
program at the Agency. This strategy will deploy I&E resources in a manner that will provide an
effective compliance program for all of the elements of an inspection and enforcement progran1
as identified.

Responsible Party:     Superintendent, 0 age Agency
Target Date:           September 31, 2015

Recommendation No. 17

Reevaluate existing gauging practi es and develops and implements a more efficient and
effective gauging program if the agency continues to emphasize gauging. This could include
risk-based gauging.

Response:

Indian Affairs Concurs with Recommendation No. 17

The Osage Agency has hired additional PETs to perform gauging within Osage County.
Additional equipment such as vehicles, gauging boxes gauging tools, as well a certified BLM
training has been provided. Desktop operating procedures are being reviewed and revised with
the assistance of BLM for best management practices to include risk ba ed gauging.

Responsible Party:     Superintendent, Osage Agency
Target Dat :           August 30,2015 (see attachment 6)

Recommendation No. 18

Identify all high-risk leases. develop and implement a risk based strategy to annually inspect all
high risk leases. and include a plan to inspect all lease over a specified time.

Response:

Indian Affairs Concurs to Recommendation No. 18

The 0 age Agency is working on a strategy to identi all high-risk leases to ensure that ther
are rumual in pection performed. This listing will include those lease w ith reoccurring
environmental is ues, violations. spills, and oth r surface issues. The Osage Agency is working
in conj unction with BLM to id ntif)r the risk factors for the wells/leases and will develop a risk-
based strategy for the I&E program that will mirror the BLM protocol.

Responsible Party:     Superintendent, Osage Agency
Target Date:           August 30, 2015




                                                                                                 61
Recommendation No. 19

Upgrade the agency 's in :pee/ion management system to include all leases in :peeled and the
risks a sociated with the leases.

Response:

Indian Affairs Concurs to Recommendation No. 19

The Osage Agency currently has a lea e tracking system in place. It is a component of the BIA-
Osage Agency Environmental Complaint Tracking ite. The Environmental Complaint
Tracking ite allows the Osage Agency to track all environm ntal complaints, spills and lea e
inspections from the time of the initial notification of complaint is received until the action has
been closed out of the system and been properly address d by BIA staff. Specifically, the Lea e
lnspection Tracker allows Agency employee to track all 1 ase inspections throughout the
resolution process for both inspections with deficiencie and thos that did not find violations.
The tracking system has the ability to track the lea in pection hi tory and status information of
all lease within the Osage Mineral Estate.

The Osage Agency issued a policy on        September 16 2014, wher by 11 lease in pecti ns
performed within Osage County will be     ncoded into the lease in pection tracker. The tracker
has been modified to include compliance   and non-compliance lease inspections. BIA considers
this recommendation to be implemented (   ee attachment 7)

R sponsible Party:    Superintendent, Osage Agency
Target Date:          September 16, 201 4 (see attachment 7)

Recommendation No. 20

Develop and implement guidance to en ure the agency consistently applies and levies fines in a
timely manner.

Response:

Indian Affairs Concurs with Recomm ndation       o. 20

The 0 age Agency bas implemented a policy to assess p nalties and fines associated with non-
complianc after the original notification of iolation to the les ee. With the implementation of
the Branch of Enforcement and Compliance the Osage Agency is in a b tter position to insure
that deficiencies are addressed penalties as e ed, and action is promptly taken for cancellation
of non-compliant leases. BIA considers this recommendation to be implemented (see attachment
8)

Responsibl Party:     Superintendent, Osage Agency
Target Date:          September 18, 2014 (see Attachment 8)




                                                                                                62
Recommendation No. 21

Develop and implement an agency action plan to identify and tract leases that it should
terminate for nondevelopment. nonproduction. and noncompliance with lease terms.

Response:

Indian Affairs Concurs with Recommendation No. 21

The Osage Agency previously identified thi issu and has already implemented a process to
notify the lessees of non-production within six months and to show cau e why the lease should
not terminate for lack of production. The Osage Agency recently began generating periodi
reports from the 0 age uite to identify lea es that had no production for ix (6) consecutive
months. Notice is provided to producers with lease on this list. If there i no proof of
production provided and a site inspection confirms that ther is no production, th lease will be
terminated. This responsibility has been identified for the Branch of Enforcement and
Complian e. With regard to termination of leases for noncompliance with lease terms (other
than primary term), Osage Agency is developing internal enforcement guidelines and policies
that will describe circum tances such as "significant noncompliance·' that would warrant lea. e
termination. Significant noncompliance ( NC) would likely include consideration of repeated
instances of serious lea e d ficiencies that are not corrected and risk of harm to people or the
environment. BlA considers tlu r commendation to be implemented ( ee attachment 9)

Responsible Party:    Superintendent, Osage Agency
Targ t Date:          August 29, 201 4 (see Attachment 9)

Recommendation No. 22 Item needs further review/strategy for plugging

Develop and implement a strategy for the agency to identify all wells to be plugged and
abandoned, develop a prioritized list based on risk. and work with the Council to plug high-risk
well.

Response:

indian Affairs Non-Concurs with recommendation No. 22

The Osage Mineral Council currently op rat sa pro!ITam to plug certain wells (purging, danger
to environment or health and public afety). The issue of abandoned and unplugged well was
raised during the negotiated rule as well as public comment received durint> the comm nting
period. It i under further review and ass ssment within the Bureau of Indian Affair . In
addition to this review and assessment, the Bureau of Indian Affair has met with the Oklahoma
En ironmental Resource Board (OERB) to foster increased activity within 0 age County with
regards to their remediation o abandon d well sites. The OERB will be presenting at the 0 age
Minerals Forum in September of 2014 outlining their site r toration program and soliciting
areas to be remediated. This is a service provided free of charge to the urface owner.




                                                                                             63
Responsible Party:    Director, Bureau of Indian Affairs
Target Date:

Recommendation No. 23

Work with USG 's Enerzy Resources Program to request a mineral resources assessment on the
Osage Nation · mineral estate.

Response:

Indian Affairs Concurs with R commendation No. 23

In order to meet the intent of the recommendation the Osage Agency will be working with
OlEED. Due to the fact they have done prelim inary work within Osage County and are
configured to do countywide as essment , it is felt they are better uited to provide the r source
asses ment in the shortest possibl time. They w ill concentrate on areas of prospect with in
Osage County as well as formation as essments.

Responsible Party:    OIEED
Target Date:          September 31 201 5

Recommendation No. 24

Reconcile oil and ga exception to independent or third party sources of information and follow
up and re olve any identified diffi renee in a tirnel manner.

Response:

Indian Affair Concur with Recommendation        o. 24

The implementation of ONRR accounting sy tern will address this recommend tion. ONRR will
address royalty and production reporting, data mining and further compliance functions
including auditing. The implementation will further provide a consistent level of trust-services
across Indian country for the admini tration of mineral lea es.

Responsible Party:    Director, Bureau flndian Affairs
Target Date:          The implementation to ONRR will be a multi-year approach beginnin g
                      January 1, 2015 and scheduled for Gnal completion of all a pects of the
                      system on December 3 1, 201 7.

Recommendation No. 25

Enter into an MOUlt ith ONRR to implement ONRR's electronic data system.




                                                                                              64
Response:

Indian Affairs Concurs with Recommendation No . 25

BJA and ONNR are pre ently working on an agreement to utilize and implement their electronic
data system, which will include automated production and accounting systems, as well as,
compliance functions.

Responsible Party:    Director, Bureau of Indian Affairs
Target Date:          The implementation of ONRR will be a multi-year phased approached
                      beginning January 1, 2015 and cbeduled for final completion of all
                      aspects of the system on Dec mber 31, 2017.

Recommendation No. 26

Develop and implement agency sampling thresholds and follow up on any identified
discrepancies in a timely manner.

Response:

Indian Affairs Concurs to Recommendation No. 26

Once the transition to ONRR is complete. ONRR will u e its established materiality and
threshold poli ies to identify and follow-up on discr pancies in a timely manner.

Responsible Party:    Director, Bureau of lndian A1fair
Target Date:          The implementation of ONRR will be a multi-year phased approached
                      beginning January 1, 2015 and ch duled for final completion of all
                      aspects ofthe sy tern on December 31,2017.

Recommendation No. 27

Reconsider ils practice ofenLering oille ee reports into the   age Suite system.

Re ponse:

Indian Affairs Concurs with Recommendation No. 27

While the 0 age Agency concurs in this recommendation, it mu t continue to utilize the 0 age
Suite in documenting those reports associated with reporting and accounting of royalties until
such time that ONNR accounting system is implemented.

Responsible Party:    Superintendent, sao-e Agency
Target Date:          The implementation of ONRR will be a multi-year phased approached
                      beginning January 1. 2015 and cheduled for final completion of all
                      aspect of the system on December 3 1, 2017.




                                                                                           65
Recommendation No. 28

Enter into an MOUwiLh ONRR to itnplement ONRR 's systems to address the agency ' database
deficiencies.

Response:

Indian Affairs Concurs with Recommendation    o. 28

BIA and ONRR are currently working closely together to establish an agreement to implement
ONRR' s production and accounting systems and related compliance functionality.

Re ponsible Party:   Director. Bureau of Indian Affairs
Target Date:         The implementation of ONRR will be a multi-year phased approached
                     beginning January 1, 2015 and scheduled for final completion of all
                     aspects of the system on December 31 , 201 7.

Recommendation No. 29

Enter into a MOUwith ONRR to conduct comphance review, audits, and data miningfor royalty
compliance and verification.

Response:

Indian Affairs Concurs with Recommendation No. 29

As part of the transition to production and accounting with ONRR the agreement wi ll incl ude
the compliance nmction such as up front editing of reporting data, data mining compliance
reviews and audit .

Responsible Party:   Director, Bureau of Indian Affairs
Targ t Date:         The implementation of ONRR will b a multi-year phased approached
                     beginning January 1 2015 and scheduled for frnal completion of all
                     aspects of the ystem on December 3 1, 201 7.

Recommendation No. 30

Work wUh the Division of Energy and lvfinerals Development to implement the NIOGEMS
program for electronic lease file management and agency lea e and weli mapping.

Response:

Indian Affairs Concurs with Recommendation No. 30

The Osage Agency has been working with OIEED and th NIOGEMS progran1 is currently
being readied for implem ntation at 0 ag Agency.




                                                                                          66
Responsible Party:   Regional Director, Eastern Oklahoma
Target Date:         August 30. 2015

Recommendation No. 31

Develop and implement a records managernent program for agency lease files to comply with
IARMM to include using the NIOGEMS program for electronic lease file rnanagement.

Response:

Indian Affair Concurs with Recommendation No. 31

The Osage Agenc h s b en working with OIEED and the NIO EM               program is current!
being readied for implementation at Osage Agency.

Responsibl Party:    Regional Director, Eastern Oklahoma
Target Date:         August 30, 2015

Recommendation No. 32

Work with the Office oflndian EnerfDJ and Economic Development to implement the NIOGEMS
program f or the agency tract management.

Response:

Indian Affairs Concurs with Recommendation No. 32

BIA is actively working with 01 ED to implement the NJOGEMS progran1 at the Osage
Agency.

Responsible Party:   Director, Bureau of Indian Affairs
Target Date:         August 30, 20 15

Recommendation No. 33

Autornate its lease acreage data to en ure accurate information is available to the Agenc and
Council.

Response:

Indian Affairs Concurs with Recommendation No. 33

The T AAMs is utilized by the Agency. The A ency will ensure all mineral leases are encoded
into TAAMs and the information is up to date and correct. This will include the first and Ia t
production date of all producing or non-producin 0 wells. The system will then be capabl of
producing a report of avai lable acreage. [n addition an Osage specific T AAMs module is being




                                                                                           67
prepared for Osage Agency that will addr ss some of the unique needs as oc iated with the
mineral estate.

Responsible Party:    uperintendent, Osage Agency
Target Date:         December 3 1, 20 15




                                                                                      68
Appendix 5: Status of
Recommendations
   Recommendations                       Status     Action Required




Recommendations 7, 13, 15,        Resolved and    No further action is
19, and 20                        implemented.    required.




Recommendations 1, 2, 3, 4,                       We will refer these
5, 6, 8, 9, 10, 11, 12, 14, 16,                   recommendations to
                                  Resolved; not   the Assistant Secretary
17, 18, 21, 23, 24, 25, 26,
                                  implemented.    for Policy, Management
27, 28, 29, 30, 31, 32, and
33                                                and Budget for tracking
                                                  their implementation.



                                                  We will refer this
                                                  recommendation to the
Recommendation 22                 Unresolved      Assistant Secretary for
                                                  Policy, Management and
                                                  Budget for resolution.




                                                                         69
          Report Fraud, Waste,
          and Mismanagement
              Fraud, waste, and mismanagement in
             Government concern everyone: Office
            of Inspector General staff, departmental
             employees, and the general public. We
                actively solicit allegations of any
            inefficient and wasteful practices, fraud,
                 and mismanagement related to
             departmental or Insular Area programs
                 and operations. You can report
                allegations to us in several ways.


By Internet:       www.doi.gov/oig/index.cfm

By Phone:          24-Hour Toll Free:                800-424-5081
                   Washington Metro Area:            202-208-5300

By Fax:            703-487-5402

By Mail:           U.S. Department of the Interior
                   Office of Inspector General
                   Mail Stop 4428 MIB
                   1849 C Street, NW.
                   Washington, DC 20240
